<html>
<title> - ENSURING EFFECTIVE PREPAREDNESS AND RESPONSE--AN ASSESSMENT OF THE FISCAL YEAR 2012 BUDGET REQUEST FOR THE FEDERAL EMERGENCY MANAGEMENT AGENCY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                  ENSURING EFFECTIVE PREPAREDNESS AND 
RESPONSE--AN ASSESSMENT OF THE FISCAL YEAR 2012 BUDGET REQUEST FOR THE 
                  FEDERAL EMERGENCY MANAGEMENT AGENCY

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
                        PREPAREDNESS, RESPONSE,
                           AND COMMUNICATIONS

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 9, 2011

                               __________

                            Serial No. 112-7

                               __________

       Printed for the use of the Committee on Homeland Security




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                  U.S. GOVERNMENT PRINTING OFFICE
  72-218 PDF              WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop SSOP, Washington, DC 
20402-0001









                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

  SUBCOMMITTEE ON EMERGENCY PREPAREDNESS, RESPONSE, AND COMMUNICATIONS

                  Gus M. Bilirakis, Florida, Chairman
Joe Walsh, Illinois                  Laura Richardson, California
Scott Rigell, Virginia               Hansen Clarke, Michigan
Tom Marino, Pennsylvania, Vice       Vacancy
    Chair                            Bennie G. Thompson, Mississippi 
Blake Farenthold, Texas                  (Ex Officio)
Peter T. King, New York (Ex 
    Officio)
                   Kerry A. Kinirons, Staff Director
                  Natalie A. Nixon, Deputy Chief Clerk
            Curtis Brown, Minority Professional Staff Member











                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Gus M. Bilirakis, a Representative in Congress From 
  the State of Florida, and Chairman, Subcommittee on Emergency 
  Preparedness, Response, and Communications.....................     1
The Honorable Laura Richardson, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Emergency Preparedness, Response, and Communications...........     2
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     3

                                Witness

Mr. W. Craig Fugate, Administrator, Federal Emergency Management 
  Agency, Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6

                                Appendix

Questions From Chairman Gus M. Bilirakis of Florida..............    33
Questions From Ranking Member Laura Richardson of California.....    37
Questions From Chairman Peter T. King of New York................    49
Question From Chairman Gus M. Bilirakis of Florida on Behalf of 
  Honorable Mike Rogers of Alabama...............................    49

 
  ENSURING EFFECTIVE PREPAREDNESS AND RESPONSE--AN ASSESSMENT OF THE 
 FISCAL YEAR 2012 BUDGET REQUEST FOR THE FEDERAL EMERGENCY MANAGEMENT 
                                 AGENCY

                              ----------                              


                        Wednesday, March 9, 2011

             U.S. House of Representatives,
 Subcommittee on Emergency Preparedness, Response, 
                                and Communications,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:30 a.m., in 
Room 311, Cannon House Office Building, Hon. Gus M. Bilirakis 
[Chairman of the subcommittee] presiding.
    Present: Representatives Bilirakis, Marino, Farenthold, 
Richardson, Clarke, and Thompson (ex officio).
    Mr. Bilirakis. The Subcommittee on Emergency Preparedness, 
Response, and Communications will come to order. The 
subcommittee is meeting today to receive testimony from 
Administrator Craig Fugate on the President's fiscal year 2012 
budget request for the Federal Emergency Management Agency. I 
now recognize myself for an opening statement.
    The President's fiscal year 2012 budget requests $10 
billion for the Federal Emergency Management Agency, FEMA. Of 
this amount, the budget includes $815 million for management 
and administration, $3.8 billion for State and local programs, 
and $1.8 billion for the Disaster Relief Fund.
    In this difficult budget climate, I am pleased to see that 
FEMA is taking steps to reduce its costs without sacrificing 
operations. The request for management and administration is 
$88 million less than the level in the fiscal year 2011 
continuing resolution. Much of this reduction is attributed to 
efficiencies and streamlined business processes. I hope to hear 
more from Administrator Fugate about these efficiencies and his 
timeline for the completion of program evaluations to identify 
any duplicative programs.
    An issue that Administrator Fugate has been stressing is a 
whole-of-community approach to emergency management. This is an 
approach that local emergency managers and emergency response 
providers in my area of Florida and around the country have 
been following for years. One way to accomplish this is to 
ensure that as policies are developed at the Federal level, 
officials at the State and local level and citizens are 
involved in the process.
    With this in mind, I must again raise an issue I raised 
with Administrator Fugate last month. I've heard from emergency 
managers in my district and from around the country that they 
are concerned that the requirements of FEMA's Functional Needs 
Support Services guidance may impact their ability to open 
emergency shelters during a disaster. They have repeatedly 
sought clarification from FEMA and the Department of Justice on 
the application of this guidance, but have not received 
sufficient answers. So, Administrator Fugate, I hope we can 
continue to discuss this issue and that you will work with me 
and my constituents to clarify these requirements so we can 
ensure that all citizens are accommodated during a disaster 
without impeding response capabilities.
    Finally, I want to thank Administrator Fugate for hosting 
Members of this subcommittee at FEMA last month. It was the 
beginning of the dialogue that I look forward to continuing 
this morning.
    The Chairman now recognizes the Ranking Member Ms. 
Richardson from California for any statement she may have.
    Ms. Richardson. Thank you, Mr. Chairman. First of all, let 
me congratulate you and welcome you on your virgin voyage here. 
It has always been a pleasure to work with you, and I look 
forward to continuing to do so. You can count on my assistance.
    Mr. Bilirakis. I appreciate that very much.
    Ms. Richardson. Mr. Fugate, good morning. We are here today 
to receive testimony from the administrator regarding the 
Federal Emergency Management Agency's fiscal year 2012 budget 
request. While I am very interested in hearing from Mr. Fugate 
regarding his plans for full year 2012, it is imperative that 
we discuss some of the alarming impacts pending with the 
potential passage of H.R. 1.
    As the subcommittee meets to discuss spending for full year 
2012, the Congress is simultaneously holding discussions on 
H.R. 1. As we sit here today, the Federal Government, including 
FEMA, is only funded through March 18, 2011, under the current 
continuing resolution. This has not only affected FEMA's 
ability to determine funding needs, but has also delayed the 
publication of guidance for existing grant programs, which will 
further delay any grants awarded this year. These delays 
frustrate the ability of stakeholders, including our State and 
local governments, to maintain an adequate level of emergency 
preparedness and response.
    To make matters worse, the $1.4 billion reduction in 
funding for FEMA-administered grants serves as another setback. 
We are all familiar with what those reductions include. These 
cuts will not only influence stakeholders' preparedness ability 
for the remainder of full year 2011, but will also carry into 
future funding cycles. While I respect FEMA's end goal of 
simplifying the grant process--and I had an opportunity to 
speak to Mr. Fugate just a moment ago--what I do think we need 
to be concerned is, if we go on this consolidated process, that 
those funding sections that are melded in there are not reduced 
to a level where they are competing against one another and 
there is not enough adequate funding.
    As you are aware, two programs of particular importance to 
me are the SAFER program, which includes the firefighters, 
which has always been, I think, a big fight, and an amendment 
was on the floor to that fact of H.R. 1.
    Just recently, on February 22, in the 37th Congressional 
District, a Libyan tanker spilled approximately 710 gallons of 
oil when the ship tanks overflowed into the harbor there. I 
want to commend all of the work that was put together. I have 
gone to the Gulf twice after the unfortunate Gulf spill to see 
the boons, after seeing the various devices that were there in 
place, you could definitely tell that we had lessons learned, 
and all of the operations were in place to handle that 
situation in a safe manner. I want to commend you and all your 
efforts of coordinating that effort.
    Finally, what I think is important to talk about is the 
National Disaster Recovery Framework. It has been over a year 
since the draft document was available for the public, and I am 
hoping a final version will provide us with a clearer picture 
of the roles and responsibilities of the recovery process. I am 
interested in hearing a status update regarding FEMA's efforts 
towards the recoupment of the individual assistance funding 
received by those affected by Hurricanes Katrina and Rita. 
Again, I look forward to your testimony and working with you.
    Mr. Bilirakis. Thank you. Of course I look forward to 
working with you in the upcoming months.
    Other Members of the subcommittee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             March 9, 2010
    Welcome Administrator Fugate and thank you for being here today to 
testify regarding the President's fiscal year 2012 budget request for 
the Federal Emergency Management Agency.
    I appreciate the administration's attempt to balance the commitment 
to fiscal responsibility with the need to strengthen the security of 
our Nation in the fiscal year 2012 budget.
    But unfortunately, we have not finalized the fiscal year 2011 
budget.
    Instead, we are relying on a Continuing Resolution process that 
fails to provide the stability necessary to implement important 
homeland security initiatives.
    Specifically, the failure to pass the fiscal year 2011 budget will 
place additional strain on FEMA's Grants Directorate and State and 
local agencies trying to invest in critical homeland security 
priorities.
    I hope that my colleagues on the other side of the aisle will end 
this dangerous budgetary strategy and pursue a course that provides our 
first responders with the financial certainty they need to fulfill 
their missions.
    We must continue to make those critical investments in preparedness 
even in these tough economic times because preparedness and mitigation 
is cost-effective.
    Reports by the Congressional Budget Office and Multihazard 
Mitigation Council confirm that mitigation saves lives and reduces 
property damage.
    Therefore, I am concerned that the proposals to decrease FEMA's 
budget could limit the progress the agency has experienced in the last 
few years.
    Thankfully, we have not experienced a storm of the same force of 
Hurricane Katrina. But last year, FEMA processed the largest number of 
disaster declarations in its history. Additionally, we have seen a rise 
in the number of devastating natural disasters across the world.
    Therefore, I do have some concerns about the budget proposal, 
including the possible devastating effects of House Resolution 1, which 
calls for significant cuts to first responder grants and training 
programs.
    We should learn the lessons from Hurricane Katrina and not reverse 
FEMA's progress by creating budgetary shortfalls and decreasing 
capacity at the State and local levels.
    First responder investments through grant programs not only enhance 
a specific locality but also build our National capacity to be 
resilient in the face of disasters.
    Additionally, I am concerned about proposals to consolidate several 
free-standing grants, such as the Metropolitan Medical Response System 
grant, which could diminish investments in these important initiatives.
    As a former volunteer firefighter I believe that we must continue 
to support these critical emergency preparedness efforts and build 
capacity at the local levels.
    I look forward to hearing how you will address these concerns.
    Thank you again for being here today. I yield back.

    Mr. Bilirakis. I am pleased to welcome Administrator Fugate 
before the subcommittee. Mr. Fugate was appointed by President 
Obama to serve as the Administrator of the Federal Emergency 
Management Agency and was confirmed by the United States Senate 
on May 13, 2009.
    Prior to coming to FEMA, Mr. Fugate served as director of 
the Florida Division of Emergency Management, a position he 
held for 8 years. Mr. Fugate began his emergency management 
career as a volunteer firefighter, emergency paramedic, and 
finally as a lieutenant with the Alachua County Fire Rescue. 
Mr. Fugate and his wife hail from Gainesville, Florida, a city 
very close to my heart.
    Welcome, administrator. Your entire written statement will 
appear in the record. I ask that you summarize your testimony. 
You are recognized now. Thank you.

STATEMENT OF W. CRAIG FUGATE, ADMINISTRATOR, FEDERAL EMERGENCY 
       MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Fugate. Thank you, Mr. Chairman, and Ranking Member 
Richardson, and other Members of the subcommittee. It is an 
honor to be here, sir, and to reestablish the relationship we 
had when you were in the Florida legislature.
    The purpose of this briefing is to present the President's 
request for 2012, our budget request. As you have summarized 
most of that, I just want to talk about some general items and 
then give the committee plenty of time to answer the questions 
you have.
    Our mission is really about--you know, there is a tendency 
to look at FEMA as a response organization. Our mission is 
really about supporting State and local governments, preparing 
for, and then ultimately the response and recovery from those 
disasters that require Federal assistance. But in doing this, 
there are certain costs of maintaining capabilities, there are 
certain costs in providing preparedness funds that have been 
on-going programs based upon both the threats from natural 
hazards, but also the threat from terrorism.
    But the one thing that I have always been faced with is 
nobody has ever given us a blank check. We have always had to 
work within the budgets and the constraints that we have in 
looking at how we prioritize our programs. So this budget 
starts that process of implementing many of the reductions that 
are going to be required in the budget process, but also 
continuing to provide a level of service to meet the needs in 
support of our Governors and local communities. Part of these 
savings are actually being done through efficiencies within 
FEMA, of looking at how we do our business, and looking for 
reductions in those costs to pass those back to the taxpayer 
versus cutting and eliminating capability to respond and 
support during a disaster.
    Mr. Chairman, some of these examples are really 
straightforward, such as looking at travel that is not core to 
the mission, and looking at alternatives, such as using more 
videoconferencing and web chat, which actually allows greater 
participation in many venues than conferences; looking at 
things such as decommissioning and turning off excess 
communication equipment that had been activated from previous 
disasters; going back and looking at open disasters and closing 
out those funds that are no longer needed or were deobligated, 
but had not been put back into the Disaster Relief Fund.
    Last year, through efforts of closing out existing open 
missions on the Federal Government side, we were able to place 
over $2 billion back into the Disaster Relief Fund to support 
on-going response and recovery operations. We are continuing 
this year, as we look at existing open disasters where work has 
been completed by the States and local governments but there 
are still obligated funds that are no longer needed, 
deobligating those and put those back into the relief funds so 
we can continue that work.
    So as we go through this process of preparing for the 2012 
budget, we want to continue looking at some of our key 
investments. As was pointed out by Ranking Member Richardson, 
we have invested in various grant programs, some of which have 
been very important in the recent economic downturn, such as 
SAFER, in which the President is continuing the level of 
funding there to continue supporting the ability to retain, 
rehire, and keep firefighters in communities that are in acute 
budget situations.
    We are also looking at, again, giving some flexibility as 
we look at one of the things the General Accounting Office 
report that recently came out says: We have a lot of programs 
that do similar things and actually duplicate each other. So we 
are looking at how we can consolidate some of these grants, 
but, as the Ranking Member stated, make sure the guidance still 
funds those activities as eligible, but not have one pot of 
money coming down to States and local governments looking at 
one piece of preparing for a terrorist event and another pot of 
money having very similar guidance, going down to the same 
communities; and giving them in these challenging times a 
little bit more flexibility of how to apply those funds without 
necessarily saying, we are going to fund each one of these 
activities separately, when they have common and sometimes 
duplicative types of efforts that are occurring.
    So as we go through this process, and we continue to work 
on our budget, one of the things I am most proud of being at 
FEMA is being part of the team not only within FEMA, but within 
Homeland Security and the Federal Government. Our only real 
challenge that I see as we continue to go forward is to 
continue to recognize that, even if FEMA is in good shape, if 
our State and local partners are not in good shape and don't 
have support, we will not be able to respond effectively in 
this Nation to disaster. It has to be a team effort. We cannot 
just fix one part of the team. It has to be local, State, 
Federal, but also including volunteer, faith-based, the private 
sector and the communities we serve as part of that team.
    Thank you, Mr. Chairman.
    Mr. Bilirakis. Thank you very much.
    [The statement of Mr. Fugate follows:]
                 Prepared Statement of W. Craig Fugate
                            i. introduction
    Good morning Chairman Bilirakis, Ranking Member Richardson, and 
distinguished Members of the subcommittee. My name is Craig Fugate, and 
I am the administrator of the Federal Emergency Management Agency 
(FEMA). It is an honor to appear before you today on behalf of FEMA to 
discuss our fiscal year 2012 budget request. I was pleased to host 
several Members of this subcommittee at FEMA headquarters last month 
for a productive discussion on addressing some of our most pressing 
issues. I look forward to continuing that dialogue today.
    As you know, FEMA has changed the way we do business over the past 
several years. FEMA was included in the organizational realignment that 
led to the creation of the Department of Homeland Security in the 
aftermath of the September 11, 2001 attacks. FEMA also underwent major 
organizational changes after Hurricane Katrina, when Congress passed 
the Post-Katrina Emergency Management Reform Act (PKEMRA) and increased 
funding for building emergency management capabilities. In short, FEMA 
is a much more effective agency today than we were just a few years 
ago. Our ability to meet our mission this past fiscal year was a direct 
result of the tools that we have been able to put in place with your 
help and support.
    However, we also know these are difficult economic times that call 
on us to make difficult budgetary choices. We all bear the 
responsibility for internalizing the challenges presented by an austere 
budget environment, while ensuring we fulfill our responsibilities to 
the Nation. In fiscal year 2012, we will fulfill our mission by 
increasing our efficiency and focusing on our core mission of ensuring 
resilience to disasters. While this economic climate requires us to 
fulfill our mission at the same time as we reduce our spending, the 
administration's proposed FEMA budget is reflective of both 
imperatives.
                     ii. overview of fema progress
    FEMA's mission is to support our citizens and first responders to 
ensure that as a Nation we work together to build, sustain, and improve 
our capability to prepare for, protect against, respond to, recover 
from, and mitigate all hazards.
    In addition to our Washington, DC headquarters, FEMA has ten 
permanent regional offices, three permanent area offices, and various 
temporary disaster-related sites that carry out the agency's operations 
throughout the United States and its territories. I would like to begin 
my testimony by presenting a brief overview of the major programs 
administered by FEMA, and providing a sense of what we have done with 
the resources we have been allocated.
Response
    FEMA's Response Directorate, a part of the Office of Response and 
Recovery, assists States by providing and coordinating the core Federal 
response capabilities needed to save and sustain lives, minimize 
suffering, and protect property in communities overwhelmed by the 
impact of an incident. More specifically, the Response Directorate 
coordinates and integrates Federal interagency all-hazards disaster 
planning and response operations; manages emergency response teams; and 
oversees disaster emergency communications programs.
    FEMA's response capability has come a long way over the past 
several years. In 2005, Federal incident response duties were shared by 
two groups of teams: the Emergency Response Teams (ERTs) and the 
Federal Incident Response Support Teams (FIRST). Due to cost 
constraints, ERTs were established using staff members who had other 
primary day-to-day responsibilities in FEMA's headquarters and the 
regions; and the FIRSTs were comprised of teams located in two regions 
with a small dedicated staff. Moreover, catastrophic planning was 
conducted primarily at FEMA headquarters, since the regions were not 
adequately staffed with dedicated planners to fully perform this 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c6a0b3a8a5b2afa9a8e886">[email&#160;protected]</a>
    In order to address these inadequacies, FEMA consolidated the 
responsibilities of the ERT and FIRST teams into 13 regional and three 
national Incident Management Assistance Teams (IMATs), rapid response 
teams staffed with full-time personnel. FEMA has also used funds 
provided by Congress to upgrade technology and develop an all-hazards 
24/7 situational awareness capability at the National Watch Center in 
FEMA Headquarters and in all of the Regional Watch Centers. The FEMA 
Operations Center (FOC) has upgraded its alert, warning, and 
notification technology capabilities and tripled the Emergency 
Notification System (ENS) capability. With increased staffing levels, 
FEMA has integrated the planning efforts conducted at the regional and 
local levels. Finally, FEMA's IMATs, Urban Search and Rescue (US&R) 
teams and Mobile Emergency Response Support (MERS) teams are capable of 
deploying and arriving on scene to provide incident management support 
and disaster response assistance within 12 hours of notification.
    In 2010, FEMA responded to 81 new Presidential major disaster 
declarations and nine new Presidential emergency declarations, and 
issued 18 fire management assistance declarations. In all, the agency's 
efforts provided critical assistance to 41 States, the District of 
Columbia, and two territories, in response to a variety of major 
disasters, including back-to-back severe winter storms and record 
snowfall, Hurricanes Alex and Earl, Tropical Storms Otto and Tomas, 
several fires in California, an earthquake in Imperial County, 
California, severe storms and flooding in Illinois, and record floods 
in Tennessee.
    We have also increased our coordination with the private sector on 
a range of issues that will benefit our response effort. We have 
corporate candidates, nominated by the Retail Industry Leaders 
Association, serving 3-month rotations within our National Response 
Coordination Center (NRCC). We have included private sector 
representatives in our no-notice ``thunderbolt'' response and recovery 
exercises, and we have shared ideas and lessons learned on a wide array 
of technology initiatives, including mobile applications, shared data 
feeds, and alert warnings through smart phones and other devices. 
Finally, we have dedicated one of our primary working groups--chaired 
by a member of the private sector--in support of National Level 
Exercise 2001 (NLE 11) to engaging the private sector.
Recovery
    FEMA's Recovery Directorate administers Federal disaster assistance 
programs that support individuals and communities affected by 
disasters. These programs constitute the majority of the resources 
provided by the Federal Government to ensure that individuals and 
communities affected by disasters of all sizes, including catastrophic 
events and terrorist attacks, receive rapid disaster assistance. 
Aspects of FEMA's Recovery Directorate include:
  <bullet> Individual Assistance, which includes housing, crisis 
        counseling, legal services, and unemployment assistance;
  <bullet> Public Assistance, which includes funding for debris 
        removal, emergency protective measures, and permanent 
        restoration of infrastructure;
  <bullet> Fire Management Assistance, which provides funding for the 
        management and control of fires on publicly or privately owned 
        forests or grasslands;
  <bullet> Long-term community recovery, also known as Emergency 
        Support Function (ESF) No. 14, which coordinates the resources 
        of Federal departments and agencies to support the long-term 
        recovery of States and communities as they work to reduce or 
        eliminate risk from future incidents;
  <bullet> Mass Care, also known as ESF No. 6, which coordinates the 
        delivery of Federal mass care, emergency assistance, housing 
        and human services, when local, Tribal, and State response and 
        recovery needs exceed their capabilities; and
  <bullet> Coordination with a variety of non-governmental 
        organizations. Over the past several years, FEMA has overhauled 
        its recovery capability to provide disaster assistance more 
        quickly and effectively. For example, in 2005, FEMA had a daily 
        capacity to perform 7,000 home inspections that were used to 
        determine which FEMA repair and replacement grants a disaster 
        survivor may be eligible to receive. Today, that daily capacity 
        has more than doubled.
    In 2005, disaster survivors were required to contact as many as 17 
separate Federal agencies to apply for disaster assistance. Today, 
thanks to funding provided by Congress, FEMA and the Government as a 
whole have a centralized channel for disaster survivors to apply for 
Federally funded assistance and obtain other critical disaster 
information from Federal, State, Tribal, and local sources: 
www.DisasterAssistance.gov. FEMA has also established Internet 
Registration and Applicant Intake surge capacity to process up to 
200,000 registrations per day during a catastrophic event. Moreover, 
since the identity of nearly all applicants is authenticated at 
registration, FEMA is able to strengthen controls against waste, fraud, 
and abuse.
    FEMA achieved 93.5 percent customer satisfaction from Individual 
Assistance applicants in 2010, and www.DisasterAssistance.gov was named 
on the www.Congress.org list of five best Government websites. Last 
year, the capabilities for disaster survivors register for disaster 
assistance extended to smartphones as well.
    Several years ago, FEMA had no Nation-wide cohesive system to 
locate and monitor shelters. In order to rectify this, FEMA created a 
standardized, common, and reliable system that can be used at all 
levels of government and by non-governmental organizations to manage 
shelter facility data.
    One of the most important changes we made to the recovery process 
involved establishing two Public Assistance review panels in order to 
break logjams within the Public Assistance appeals process. The review 
panels helped to expedite decisions on pending Public Assistance 
projects, and gave us the opportunity to work closely with applicants 
to resolve long-standing disputes. Created by Secretary Napolitano in 
2009 in order to expedite final eligibility decisions for disputed 
projects, these review panels helped stalled projects move forward. To 
date, these two panels have resolved 173 previously disputed cases.
    We have seen tangible results from the changes we have made to our 
recovery process. For example, on May 14, 2010, only 10 days after the 
President declared the massive flooding in Tennessee a major disaster, 
FEMA had received 30,459 disaster assistance registrations and approved 
more than $87 million in assistance through the Individuals and 
Households Program. Of the $87 million that had been approved, almost 
92% has already been disbursed to families.
    As another example, 2 weeks after the President had declared the 
2009 flooding in Georgia a major disaster, FEMA had already received 
nearly 20,000 disaster assistance registrations and distributed nearly 
12,000 disaster assistance payments, totaling almost $40 million. In 
fact, FEMA issued the first disaster assistance payments the day after 
the declaration.
Federal Insurance and Mitigation
    By encouraging and supporting mitigation efforts, FEMA leads the 
Nation in reducing the impact of disasters and helping to break the 
``damage-rebuild-damage'' cycle in America's most vulnerable 
communities. FEMA has the lead role in helping communities increase 
their resilience through risk analysis, reduction, and insurance. One 
mitigation tool is the Flood Hazard Mapping and Risk Analysis Program, 
which addresses flood hazard data update needs and preserves the 
successful Flood Map Modernization investment. The National Flood 
Insurance Program (NFIP) provides flood insurance on a National basis 
to owners of properties located in vulnerable areas through the Federal 
Government, through both a premium revenue and fee-generated fund 
called the National Flood Insurance Fund (NFIF). In fiscal year 2010, 
the NFIP reduced potential flood losses by an estimated $1.6 billion 
and increased flood insurance policies in force by nearly 1 percent. 
The Pre-Disaster Mitigation (PDM) program offers an annual funding 
source for qualified mitigation activities that are not dependent upon 
a declaration of disaster by the President. The PDM program has reduced 
administration costs by $800,000, which has made more funds available 
for grants. Furthermore, Risk Mapping, Assessment, and Planning (Risk 
MAP) is FEMA's program to provide communities with flood information 
and tools they can use to enhance their mitigation plans and better 
protect their citizens. FEMA initiated 600 Risk MAP projects in this 
past fiscal year, which assisted 3,800 communities by addressing the 
highest priority engineering data needs, including coastal and levee 
areas.
Preparedness
    FEMA's Protection and National Preparedness (PNP) works to ensure 
that the Nation is adequately prepared for disasters of all kinds. PNP 
includes the National Preparedness Directorate (NPD), which is 
responsible for administering the National Training, Measurement, and 
Exercise Programs, funded through the State and Local Programs 
appropriation. Additional preparedness activities are also performed by 
the Grant Programs Directorate (GPD), which manages a grant portfolio 
that includes the Homeland Security Grant Program, the Port Security 
Grant Program, the Transit Security Grant Program, and the Assistance 
to Firefighters Grants. PNP strives to achieve a Nation prepared 
through a comprehensive cycle of planning, organizing, equipping, 
training, exercising, evaluating and continuous improvement.
    Furthermore, FEMA, in partnership with the Advertising Council, 
developed Ready (www.ready.gov) as a National public service campaign 
to educate and empower Americans to prepare for and respond to all 
emergencies, including natural disasters and potential terrorist 
attacks. The goal of the campaign is to get the public involved and 
ultimately to increase the level of basic preparedness across the 
Nation.
    While we continue to work toward measuring the effectiveness of all 
FEMA's investments in the Nation's preparedness capability, we are 
confident that it has grown significantly over the past several years 
as a result of an increase in planning, assessment, analysis, training 
and exercise efforts, as well as a renewed commitment to preparedness 
fostered at the National, State, local, Tribal, and territorial levels. 
Since 2005, FEMA has sponsored over 700 National, Federal, regional, 
State, and local direct support exercises.
    FEMA Regions reviewed and assessed plans from 131 jurisdictions as 
part of the 2010 Nationwide Plans Review. This latest report assessed 
the capability of State and local governments to execute an emergency 
operations plan during a catastrophic incident at approximately 79 
percent, a nearly 40 percent increase in planning capacity from the 
2006 Nationwide Plans Review.
    To ensure that FEMA is addressing the needs of the whole community 
in all of its preparedness activities, FEMA revised its Comprehensive 
Preparedness Guide (CPG) 101 to incorporate planning considerations for 
individuals with functional and access needs, individuals with limited 
English proficiency, diverse racial and ethnic populations, children, 
and household pets/service animals. FEMA, in partnership with others in 
the Department of Homeland Security, also established the Voluntary 
Private Sector Preparedness Accreditation and Certification Program, in 
recognition of the important relationship between resilient businesses 
and the recovery of communities affected by disasters.
    In 2010, FEMA trained more than 2 million homeland security and 
emergency management officials and first responders; conducted more 
than 250 Federal, State, and local exercises; and provided 120 
technical assistance deliveries for fusion centers, planning, and 
critical infrastructure/key resources. FEMA also conducted National 
Level Exercise 2010 to evaluate Federal, State, and local partners' 
emergency preparedness and coordination capabilities in response to an 
improvised nuclear device detonation.
    Exemplifying the value of these efforts, the State of Tennessee 
established a comprehensive exercise program through a partnership 
between the Office of Homeland Security, Public Health, and the 
Tennessee Emergency Management Agency. It has successfully combined 
grant funding from homeland security and public health grants for this 
integrated exercise program. More than 60 exercises have been conducted 
to date. Partnerships, relationships and planning developed during the 
comprehensive exercise program have enhanced our ability to respond as 
multi-jurisdictional teams to natural disasters, which came into play 
when Tennessee experienced multiple disasters during the spring and 
summer of 2010.
Logistics
    FEMA's Logistics Management Directorate (LM) is FEMA's major 
program office responsible for the policy, guidance, standards, 
execution, and governance of logistics support, services, and 
operations. Its mission is to provide an efficient, transparent, and 
flexible logistics capability for the procurement and delivery of goods 
and services to ensure an effective and timely response to disasters.
    In 2005, logistics was a branch function within the Response 
Division, with limited funding for personnel and assets. At the time, 
the Logistics Branch had 28 Permanent Full-Time Employees, and most of 
its workforce consisted of temporary employees with little or no 
training. In addition, the FEMA Logistics Branch did not possess a 
self-assessment tool to assist States in evaluating their logistics and 
operational capabilities.
    LM was elevated from a branch to directorate-level in April 2007, 
and now has a robust capability that is flexible and adaptable to meet 
unpredictable demands of all-hazards support. LM has made significant 
progress in permanent staffing, increasing the percentage of full-time 
employees by over 10 percent last fiscal year.
    Some examples of FEMA's 2010 logistics accomplishments include the 
following:
  <bullet> FEMA was able to fulfill more than 97.5 percent of orders 
        for life-sustaining commodities (including meals, water, tarps, 
        cots, blankets, etc.) within the time frame requested. During 
        the first quarter of 2011, FEMA Logistics has reached a 100 
        percent on-time delivery rate;
  <bullet> LM and GSA announced the opening of a new fully automated, 
        state-of-the-art Distribution Center in Atlanta, Georgia; and
  <bullet> LM developed a Logistics Capability Assessment Tool (LCAT) 
        for use by States to improve readiness, increase response 
        capacity, and maximize the management and impact of homeland 
        security resources. LM has trained all 10 Regions on LCAT, 
        conducted briefings for 41 States and territories, and 
        facilitated 19 LCAT workshop sessions with States and 
        territories.
    During the recent 2011 Mid-West/East Coast Winter Storm, FEMA's 
Logistics team supported the Regions and States by deploying essential 
supplies (i.e., generators, meals, water, cots, blankets, and infant/
toddler kits) to pre-designated locations prior to the storm's impact. 
The initial supply requirements were received, promptly filled, and 
ready for issuance to State and local governments by the required 
delivery date. As the storm moved towards the Northeast, the Logistics 
teams worked closely with the Regions and the U.S. Army Corps of 
Engineers to redirect generators to meet the changing needs.
    As a result of the FEMA logistics improvements that supported these 
and other efforts, a July 2010 Department of Homeland Security Office 
of Inspector General (OIG) report concluded that FEMA ``has made great 
strides to improve its logistics capability . . . [G]iven these recent 
initiatives, FEMA is better prepared now than at any previous time for 
dealing with a catastrophic disaster.''\1\
---------------------------------------------------------------------------
    \1\ Department of Homeland Security Office of Inspector General, 
``FEMA's Logistics Management Process for Responding to Catastrophic 
Disasters,'' OIG-10-101 (July 2010).
---------------------------------------------------------------------------
Mission Support
    FEMA's Mission Support Bureau integrates FEMA's business operations 
and support services within a single oversight structure, and is 
responsible for providing the support, tools, and resources needed to 
build, sustain and improve our capabilities. The major Bureau areas of 
responsibility are human capital, information technology, procurement, 
security, facilities management, health, safety, and records 
management.
    Recognizing that our success as an agency depends upon a trained 
and talented workforce, I made hiring a priority when I came to FEMA. 
When I began here in fiscal year 2009, FEMA's staffing fill rate was at 
79 percent. Today, the agency is at a 93 percent fill rate, and 
includes the redirection of positions to our ten FEMA Regions as a part 
of our Regional re-empowerment effort to facilitate emergency 
preparedness, coordination, and planning at the local level.
    Also in 2009, I began a project to improve FEMA's work environment 
for current and future employees, an effort that has since come to be 
known as the FEMA Workforce Enhancement Initiative. This collaborative 
initiative has brought together employees from all levels of the agency 
in workgroups to develop and implement more efficient and meaningful 
ways to improve FEMA's workforce. The areas of focus included 
recruitment, hiring, retention, performance management, career 
progression structure, and developmental initiatives and opportunities 
for employees.
    FEMA recognizes that every employee is an emergency manager, and 
should be ready for deployment if needed. To that end, in early 2010, 
FEMA transferred the efforts of the credentialing system started by the 
Disaster Workforce Division to the Deputy Administrator for Protection 
and National Preparedness, resulting in a National Credentialing 
Program that focused on a Government-wide and holistic approach to 
disaster surge staffing. The National Credentialing Program coordinates 
activities, develops policies, and recommends guidance and standards 
for credentialing all FEMA personnel and State, Tribal, and local 
officials who require access to disaster areas or FEMA facilities 
during an emergency. This program will also ensure unity of effort in 
line with the National Response Framework.
    As a result of these and other efforts, FEMA is continuing to build 
the Nation's emergency management team with our partners at all levels, 
and forging a more effective support infrastructure.
              iii. fema's fiscal year 2012 budget request
    As the President made clear in his State of the Union address, the 
current budget climate requires us to take a hard look at our agency 
and make tough decisions on how to spend limited taxpayer funds. The 
administration's proposed budget provides FEMA with the funds to 
fulfill its mission of ensuring domestic resilience to disasters while 
reducing spending in several areas through efficiencies and innovative 
thinking. I would like to take the opportunity to provide a brief 
overview of the proposed FEMA budget for fiscal year 2012.
State and Local Programs
    Through the State and Local Programs (SLP), FEMA helps State and 
local governments prevent, protect against, respond to, and recover 
from incidents of terrorism and other catastrophic events. This program 
provides for grants, training, exercises, and other support to assist 
Federal agencies, States, territories, and Tribal and local 
jurisdictions.
    The President's proposed budget for fiscal year 2012 would sustain 
Federal funding of more than $3.84 billion for State and local 
preparedness grants, highlighting the Department's commitment to 
getting resources into the hands of State and local first responders 
who are often best positioned to detect and respond to terrorism, 
natural disasters, and other threats. Even in this difficult budget 
environment, the administration recognizes the importance of 
maintaining funding for State and local governments as they prepare for 
major disasters and emergencies of all kinds.
    The agency requests $1 billion for State Homeland Security Grant 
Programs (SHSGP) and $50 million for Operation Stonegarden (OPSG), and 
requests $13 million in fiscal year 2012 resources towards the Citizen 
Corps Program (CCP). SHSGP continues to provide funding for grant 
recipients to build capabilities to protect and prepare State and local 
governments to respond to acts of terrorism, large-scale disasters, and 
public health emergencies. OPSG continues to enhance and coordinate 
joint mission border protection priorities and activities across 
Federal, State, and local law enforcement agencies and Tribal 
governments. CCP activities help support local community resilience 
goals and strategies, including: outreach and education on personal 
preparedness; integration of nongovernmental assets and personnel in 
preparedness and response protocols; improved plans for emergency 
notifications, evacuation, and sheltering; and increased citizen 
participation in community safety. CCP strengthens the Department's 
activities with more than 2,300 Citizen Corps Councils in jurisdictions 
covering 78 percent of the U.S. population and operating in all 50 
States and six U.S. territories.
    FEMA requests $191.663 million for the Training, Measurement, and 
Exercise Program for fiscal year 2012. FEMA will apply efficiencies and 
eliminate redundant activities identified through working with State 
and local governments.
    Finally, FEMA requests $1.57 billion for the Metropolitan 
Statistical Area (MSA) Preparedness Program in fiscal year 2012. The 
agency will continue to focus MSA Preparedness Program grant resources 
on activities supporting the Department's highest prioritized mission, 
``Preventing Terrorism and Enhancing Security.'' Included in the MSA 
Preparedness Program is the Urban Areas Security Initiative (UASI). The 
fiscal year 2012 budget request directs additional resources to UASI, 
which provides funding to support regional collaboration on enhanced 
security and terrorism readiness in the Nation's highest-risk urban 
areas. UASI grant requests continue to fund prevention, protection, 
response, recovery initiatives and capabilities directed at threats or 
acts of terrorism.
    In order to maximize the ability of State decision-makers to set 
priorities and to reduce administrative barriers to grants, the 
administration's budget request, like the 2011 request, proposes to 
consolidate a number of individual grant programs (including grants for 
Driver's License Security/Real ID, Interoperable Emergency 
Communications, and Buses) and make them part of the broader grant 
programs such as UASI and State Homeland Security grants. This 
consolidation will increase overall funding for UASI and State Homeland 
Security grants while reducing the number of separate grant programs, 
which ultimately decreases the number of applications a State will need 
to submit.
    The administration's budget request also proposes to consolidate 
the Emergency Management Performance Grants and the Assistance to 
Firefighter Grant Programs into the SLP. These two grant programs are 
discussed below.
Emergency Management Performance Grants
    Emergency Management Performance Grants (EMPGs) are formula grants 
provided to assist State and local governments to sustain and enhance 
the effectiveness of their emergency management programs. The proposed 
fiscal year 2012 EMPG program provides $350 million to continue 
assisting State and local jurisdictions in improving their overall 
emergency management systems. EMPG grant recipients establish, expand, 
and maintain effective partnerships with neighboring jurisdictions to 
develop emergency management plans, conduct training and exercises, and 
procure necessary resources to assist in the event of any catastrophic 
emergency. Under this proposed budget, EMPG grants continue to be 
distributed on a formula basis.
Assistance to Firefighter Grant Programs
    This program is comprised of Assistance to Firefighter Grants 
(AFG), Staffing for Adequate Fire and Emergency Response (SAFER) 
Grants, and Fire Prevention and Safety Grants (FP&S). The combination 
provides support to fire departments and non-affiliated emergency 
medical services (EMS) to improve the readiness and capability of local 
first-responders during all-hazards emergencies, including firefighting 
and EMS operations.
    AFG awards grants directly to fire departments and non-affiliated 
EMS organizations throughout the United States to support 1-year 
projects that improve the effectiveness and safety of the Nation's 
first responders in homeland security, firefighting, and EMS 
operations. Under its authorizing legislation, AFG must also expend a 
minimum of 5 percent of appropriated funds under FP&S for fire 
prevention activities. SAFER grants provide funding directly to fire 
departments in order to help them increase the number of trained 
``front line'' firefighters available in their communities. The goal of 
SAFER is to enhance the local fire departments' abilities to comply 
with staffing, response, and operational standards.
    The fiscal year 2012 request includes $670 million for these 
programs. Included in this amount are $420 million for SAFER Grants to 
rehire laid off firefighters and retain veteran first responders--
totaling 2,300 firefighter positions--and $250 million for AFG and 
FP&S, in order to fund equipment, training, vehicles, and related 
materials. The amount requested for SAFER in fiscal year 2012 reflects 
the reality that effective fire safety programs require both equipment 
and personnel. While the $5 billion we have provided over the past 
several years through AFG has furnished fire departments with 
equipment, vehicles and other necessities, we must ensure that States 
and localities have the necessary personnel to perform the task at 
hand. This means rehiring laid-off firefighters, increasing fire 
department staffing to be consistent with nationally recognized 
consensus standards, supporting veteran first responders, and providing 
our State and local partners with the tools they need to keep our 
country safe.
Management & Administration
    The Management and Administration (M&A) appropriation provides core 
mission funding for the development and maintenance of an integrated, 
Nation-wide capability to prepare for, mitigate against, respond to, 
and recover from the consequences of major disasters and emergencies. 
M&A supports core operations for all FEMA organizations, providing 
resources for mission activities and administrative support. M&A 
resources are directed to both regional and headquarters operations.
    The fiscal year 2012 President's budget request of $815.099 million 
for the M&A appropriation reflects FEMA's priority to manage resources 
more effectively across the Federal Government while ensuring the 
Nation's resilience from disasters. The agency has reexamined its 
current allocation of resources among existing programs to focus on 
those programs that have the most significant impact on the agency's 
ability to fulfill its emergency management mission. Moreover, FEMA 
will focus on streamlining current business processes and harnessing 
the use of innovative technologies.
    FEMA will continue to look at ways to adjust our organization and 
unify enterprise activities to ensure that resources are adequately 
utilized and allocated across components. Additionally, as we move 
forward, our goal is to complete program evaluations to identify 
duplicative activities and services within our components and 
reallocate those resources to needed areas.
Flood Insurance and Mitigation
    FEMA's Federal Insurance and Mitigation Administration (FIMA) 
implements a variety of programs authorized by Congress that help 
mitigate the impact of disaster by breaking the cycle of disaster 
damage, reconstruction, and repeated damage. Mitigation is achieved 
through three critical components--analyzing risk, reducing risk, and 
insuring for risk.
    FEMA requests $102.7 million in fiscal year 2012 for the Flood 
Hazard Mapping and Risk Analysis Program. These appropriations come 
through the Flood Hazard Mapping and Risk Analysis and the NFIF 
discretionary accounts, and are used to analyze and produce flood 
hazard and flood risk data and map products to communicate flood hazard 
risk and related technical services. With fiscal year 2012 funding, 
FEMA will focus on reviewing and updating flood hazard data and maps to 
accurately reflect flood hazards for the areas with the highest flood 
risk and greatest update need.
    Funding for the National Flood Insurance Program is derived from 
two primary sources. Mandatory flood insurance premiums are used to pay 
out claims and to provide funding to support the operating and 
administrative costs associated with maintaining the program, as well 
as three grant programs that reduce future flood claims. FEMA estimates 
mandatory premium collections of $3.103 billion in fiscal year 2012. 
This is an increase of $37.2 million over the estimate for fiscal year 
2011 and is due to policy rate increases. Also, the discretionary 
policy fee income is paid by flood insurance policy holders in order to 
support the cost of administering the NFIP, which includes floodplain 
management, flood mapping, flood-related grants, and NFIP management. 
For fiscal year 2012, FEMA projects fee collections of $171.0 million, 
an increase of $2.0 million from fiscal year 2011.
    FEMA requests $84.9 million in fiscal year 2012 for the PDM grant 
program. Funding will be used to: Fund projects and plans through a 
competitive process; support the National grant competition; support 
salaries and operating expenses; and fund program support and the 
technical assistance contracts used for the preparation, review, and 
processing of PDM grants. In addition, the PDM program will continue to 
reduce administrative costs to ensure that more of those funds are 
obligated to State, local, and Tribal governments to reduce risk.
Emergency Food and Shelter
    The fiscal year 2012 request of $100 million for the Emergency Food 
and Shelter Program (EFSP) will allow FEMA to continue to supplement 
nonprofit and governmental organization emergency food and shelter 
programs by contributing an estimated 46.5 million meals, 3.1 million 
nights of lodging, 74,700 rent or mortgage payments, and 155,400 
utility bill payments.
    It is important to note that EFSP is not a disaster program and is 
not designed to serve disaster survivors. Rather, the program is 
designed to serve the public on an on-going basis to assist in the 
fight against hunger and homelessness by supplementing the funding of 
qualified local service delivery agencies.
Disaster Relief Fund
    Pursuant to the Stafford Act, the Disaster Relief Fund (DRF) 
provides a no-year base against which FEMA can direct, coordinate, 
manage, and fund eligible response and recovery efforts associated with 
domestic major disasters and emergencies. Through the DRF, FEMA can 
fund authorized Federal disaster support activities as well as eligible 
State, territorial, Tribal, and local actions, such as providing 
emergency protection and debris removal. The DRF also funds:
  <bullet> Repair and reconstruction of eligible disaster-damaged 
        infrastructure;
  <bullet> Hazard mitigation initiatives;
  <bullet> Financial assistance to eligible disaster survivors; and
  <bullet> Fire Management Assistance Grants.
    FEMA requests $1.8 billion for the DRF in fiscal year 2012. FEMA is 
taking aggressive action to maximize the balance of the DRF, including 
identifying excess funds previously obligated for past disasters and 
returning them to the DRF. In fiscal year 2010, FEMA recovered over 
$2.62 billion from prior year obligations to replenish the DRF.
    Coupled with prior year recoveries and carryover funds, the DRF is 
projected to support the 5-year average obligation level for non-
catastrophic disaster activity (excluding extraordinary events, such as 
the series of 2004 hurricanes in Florida, Hurricanes Katrina and Rita 
in 2005, the California Wildfires of 2007, and Hurricanes Gustav and 
Ike in 2008).
           iv. implementing productivity and efficiency tools
    FEMA's budget request for fiscal year 2012 strikes the appropriate 
balance between allowing us to fulfill our core mission of ensuring 
resilience to disasters, while also becoming more efficient and nimble 
in our efforts. However, a focus on efficiency is important to us not 
only in constrained fiscal times; rather, it is always an essential 
element of our ability to succeed. The unpredictable and exigent nature 
of emergency management requires us to provide fast and effective 
service to communities who need it, often on extremely short notice. In 
short, efficiency is always key to operational effectiveness. For that 
reason, we have begun implementing efficiency measures that include 
common-sense cost-cutting tools and outcome-based strategic planning, 
as well as leveraging our stakeholders as force multipliers throughout 
all aspects of the emergency management team.
Good Stewardship of Taxpayer Dollars
    While we at FEMA work to ensure resilience to disasters, we also 
bear the responsibility for demonstrating good stewardship over 
taxpayer dollars. This means minimizing and eliminating waste, fraud, 
and abuse of our programs and policies, and implementing common-sense 
measures to cut down on costs wherever possible.
    Since its inception in 2006 through the end of 2010, FEMA's Fraud 
Branch has investigated nearly 3,200 disaster fraud complaints and 
referred more than 2,400 fraud cases to the DHS Office of the Inspector 
General (OIG) for criminal investigative review and/or prosecution. The 
FEMA Fraud Branch has also prevented $5.5 million in disaster payments 
from being improperly disbursed. Finally, physical security initiatives 
netted FEMA approximately $23.5 million in funds de-obligated back to 
the agency.
    PKEMRA created several provisions in order to prevent waste, fraud, 
and abuse in the contracting and relief aid processes. To this end, 
FEMA implemented new software in 2007 that communicates real-time data 
to caseworkers in order to prevent duplicate housing payments. FEMA 
also implemented checks in the National Emergency Management 
Information System that trigger additional review for ``high risk'' 
recipients before assistance is delivered, in order to prevent 
potential fraud. These actions allow FEMA to balance the need to 
quickly provide disaster aid to victims with our responsibility to be 
good stewards of the DRF.
    Moreover, FEMA continues to realize significant savings through 
technological and human capital efficiencies. As an example, FEMA 
returned $1.99 billion to the DRF through a focused effort to identify 
unused funding on disaster contracts. We also realized $7.8 million in 
savings in wireless telecommunications by shutting down unused lines of 
service. Wherever possible, we will continue to undertake cost-cutting 
measures that will allow us to maximize the use of limited funding.
Strategic Planning and Organization
    While FEMA continues to implement cost-cutting measures in all 
aspects of our work, we must also look at our larger organization to be 
sure we are as nimble and efficient as we can be. FEMA has undertaken 
several initiatives in that regard.
    On October 1, 2009, the Response, Recovery, Federal Coordinating 
Officer Program, and the Logistics Management Directorate were combined 
under a new Office of Response and Recovery to more closely align the 
organizational structure with FEMA's operational mission. This 
reorganization has enhanced FEMA's ability to perform its mission of 
coordinating and providing an immediate Federal disaster response and 
recovery capability with State, local, and Tribal partners in 
anticipation of, or immediately following, a major disaster.
    In February 2010, as part of a broader headquarters realignment, 
the Disaster Reserve Workforce and Human Capital Divisions of FEMA were 
integrated into the new Office of the Chief Component Human Capital 
Officer (OCCHCO). As a result, the Disaster Workforce Division now 
oversees the readiness and deployment functions for the entire disaster 
workforce of full-time and reserve employees. Additionally, a critical 
mass of staffing in the budget, policy, and system areas are able to 
provide more effective services to both the institutional and 
deployable workforces.
    In addition to organizational re-alignment, we also value the 
importance of outcome-based strategic planning as a tool that will 
allow us to ensure our activities align with FEMA's strategic 
objectives. With that goal in mind, earlier this year we began 
implementing FEMAStat, a management process to facilitate the conduct 
of systematic discussions about the performance of FEMA's Offices, 
Directorates, and Regions. The purpose of FEMAStat is to frame 
productive discussion and analysis that advances FEMA's performance. We 
have already conducted several meetings and are confident in FEMAStat's 
ability to help us identify additional performance deficits and close 
those gaps to make us a stronger and more resilient agency.
    We are also currently in the process of establishing an Innovation 
Council, pursuant to Initiative Four of FEMA's Strategic Plan for 
fiscal years 2011-2014. The purpose of the Council is to help foster a 
culture of innovation and creativity within FEMA. Based on a successful 
program created by the U.S. Coast Guard, the Innovation Council will 
bring new ideas to FEMA leadership and achieve implementation.
Whole Community
    Perhaps the most important initiative we must undertake, regardless 
of the budget environment, is to recognize our efforts are part of an 
interconnected plan of action. This ``Whole Community'' approach to 
emergency management provides the appropriate framework for leveraging 
the expertise and resources of our stakeholders at all levels, both 
governmental and non-governmental.
    FEMA continues to play an integral role as part of the emergency 
management community. However, we know that we cannot and should not do 
it alone. ``Whole Community'' requires a team approach. We know the 
capabilities of Federal agencies, which can be leveraged in the event 
of a disaster to provide a robust Federal response. We know of the 
importance of effective coordination with State, local, and Tribal 
governments, who provide direct, on the ground experience and who 
usually have initial and primary responsibility for disaster response. 
We know that non-governmental organizations--like faith-based and non-
profit groups--and private sector entities possess knowledge, assets 
and services that Government simply cannot provide. An effective 
disaster response involves tapping into all of these resources.
    Finally, and most importantly, we know of the great capacity of 
individuals to care for their families, friends, neighbors and fellow 
community members, making our citizens force multipliers rather than 
liabilities. Together, we make up the whole community, and we all have 
an important role to play. We must engage all of our societal capacity, 
both within and beyond FEMA, to work together as a team. Through 
engaging the ``Whole Community,'' we maximize our limited funding and 
leverage the capabilities of our partners, who play a critical role in 
the process.
    A ``Whole Community'' approach is a valuable efficiency and cost-
saving tool; yet more importantly, it is critical to our collective 
effectiveness to succeed in preparing for, protecting against, 
responding to, recovering from, and mitigating all hazards.
                             v. conclusion
    Over the past several years, FEMA has undergone a major overhaul, 
thanks in large part to the significant resources provided to us by 
Congress. This year, we find ourselves in a budgetary climate that 
requires us to become more efficient in our efforts while maintaining 
focus on our core mission, and we must make difficult choices in the 
process.
    As I mentioned earlier, the administration's proposed budget 
provides FEMA with the funds to fulfill its mission of ensuring 
domestic resilience to disasters, while reducing spending in several 
areas through efficiencies and innovative thinking. Please be assured 
that we will continue to fulfill our most important mission of 
supporting our citizens and first responders to ensure that as a Nation 
we work together to build, sustain, and improve our capability to 
prepare for, protect against, respond to, recover from, and mitigate 
all hazards.
    Thank you again for the opportunity to appear before you today to 
discuss the proposed FEMA budget for fiscal year 2012. I am happy to 
answer any questions the subcommittee may have.

    Mr. Bilirakis. Now I will recognize myself for 5 minutes.
    Administrator, with regard to the Functional Needs Support 
Services guidance I referenced in my opening statement, can you 
please clarify when this guidance applies? Does it apply to 
emergency shelters during a disaster, long-term shelters after 
a disaster, or both? How are you working with emergency 
management officials on this issue to ensure that they can 
continue to be able to serve the people in their area?
    Mr. Fugate. Yes, sir, Mr. Chairman. With the Functional 
Shelter Needs Guidance that we put out, this actually is based 
upon the program that was utilized in Texas to ensure that 
their shelters were accessible. There have been a couple of 
more recent developments that occurred from the Department of 
Justice. Most recently, the city of Los Angeles was held in 
violation of the Americans with Disabilities Act for not being 
inclusive with the public that has disabilities in their 
programs. So we are trying to provide this information in such 
a way that it complies with Department of Justice guidance in 
their interpretations of how the Americans with Disabilities 
Act would apply to sheltering.
    But we are also recognizing that, particularly in Florida's 
case, but along the Gulf Coast, you have a situation where you 
have evacuation shelters which are very short-term that are not 
really designed to provide long-term accommodations and care 
versus those shelters that may be set up after the disaster. I 
think there are some areas there when you look at the issue of 
reasonable accommodation, that those things can be addressed.
    But it comes back to a very fundamental concept, and that 
is, when we open up an emergency shelter for an evacuation in a 
disaster, we should not find ourselves in the situation that we 
would turn people away merely because they presented a 
disability and had to go to another special facility. But when 
it comes to some of the longer-term support, I think those are 
areas that you can work on. But you really have to start off 
with the idea of: If I am using a shelter that is not 
accessible in the first place, is there another, better 
location I can use?
    In many of the Gulf Coast States, we primarily used public 
school systems as shelters. As you remember, in the Florida 
Legislature, they provide lots of funding to harden those 
shelters, but they don't always have the bathrooms or the 
shower facilities for longer-term accommodations. Those are the 
kinds of things that we need to go through and look at. But to 
turn somebody away because they present with a disability is 
one of our primary concerns that how do we get to where we are 
not having to do that?
    To be brief with this, and to give you more time for 
questions, one of the things we have looked at in FEMA is we 
used to have two different types of cots, regular cots for 
general population shelters and then what we called special 
needs cots. What we are trying to move towards, and we are 
putting out bids for and looking for the specs now to get a 
manufacturer in the United States to build them, is go to a 
universal cot so that you don't have to differentiate. It is a 
cot that is high enough and stable enough so that if somebody 
needed to self-transfer from a wheelchair, they can do it. But 
also it means that instead of trying to maintain two separate 
inventories, we go to one device that is universal and is 
inclusive. We are not there yet either. We are having to work 
and budget and build this into our capabilities. But these 
guidelines essentially provide us that road map to get there.
    So when it comes down to that emergency phase, I think 
there is more work we can do with local governments on what 
that reasonableness is, but it cannot start with the discussion 
that we are going to turn people away from a shelter because we 
can't accommodate them and send them somewhere else based upon 
a disability. It has to be based upon what are those needs 
going to be in the first 24 to 48 hours versus a longer-term 
shelter where they may be there for a week or more.
    Mr. Bilirakis. But you will continue to work with us on 
this issue as well as the local?
    Mr. Fugate. Yes, sir.
    Mr. Bilirakis. Thank you.
    I am concerned that the President's budget proposes to 
eliminate the Metropolitan Medical Response System Grant 
Program as a stand-alone program and instead roll it into the 
State Homeland Security Grant Program. MMRS provides funding to 
enhance the ability to respond to mass-casualty incidents. Do 
you know, how will the Department work to ensure that medical 
preparedness remains a priority within the large grant program?
    Mr. Fugate. To take the language that is actually in the 
MMRS and put that into the grant guidance for the State 
Homeland Security grants, which are available to the State to 
go State-wide, as well as the Urban Security Initiative grants, 
which are more specific to the metropolitan areas that are 
large city areas that we provide grant funding to. Again, we 
find that these programs have overlap. They are not exactly the 
same. But by moving that grant guidance in, we can eliminate 
the management of multiple grants, and also we eliminate having 
grants that have similar types of capabilities. By moving that 
language in, we can address the needs of making sure that the 
medical response capabilities remains, but giving local and 
State authorities where they want to put in that money and what 
they want to continue to fund.
    Mr. Bilirakis. Thank you very much.
    If we stick to the 5-minute rule, I believe that we will 
have time for a second round of questions.
    So now I will recognize Ms. Richardson, the Ranking Member, 
for 5 minutes.
    Ms. Richardson. Thank you, Mr. Chairman.
    Administrator Fugate, you discussed, as I did in my opening 
comments, about the idea of consolidating the grants. Could you 
share with us your commitment to ensure that the language that 
the State and locals--because I have been in the past 
unsupportive of this idea--if this were to happen, can you 
ensure that the language within the grant applications would 
include that the State or locals would have to verify that 
those other sections are being met?
    So let us say, for example, they decide to put all their 
money into--you know, let us say Fire Assistance or something 
like that, and they put nothing into, you know, Citizens Corps, 
that they would have to demonstrate in their application that 
everything of Citizens Corps is, in fact, being met, and so 
hence their decision to focus their dollars otherwise.
    Then the second piece, would be would you be willing to put 
a process in place to validate that, in fact, your system is 
working? So you can have a county or someone that comes back 
and says, oh, yeah, you know, we are doing it right; and yet we 
go to the region, and everyone says, oh, no, we don't have 
money, and we can't do this and that. So we put a system in 
place to be able to validate with those other end-users that 
these needs are being addressed.
    Mr. Fugate. Well, in the two-part question, I think the 
first part is, yes, we plan to put that into the grants 
guidance. I guess my question back would be: How prescriptive 
are you looking for? What we are trying to avoid is putting in 
percentages, if you have to spend X amount in certain areas 
because these are the areas of focus, and allow them to have 
that.
    The other part of was coming back from the National 
Preparedness Task Force, was: How do we measure this 
preparedness and start looking at some of these benchmarks and 
going, okay, we have got this area we are pretty strong in, and 
this is an area we need to fund and put priorities on, but is 
that reflective of the National priorities and the intent of 
Congress in providing those funds?
    So it really comes back to, yes, we want to put that 
language in there. The question will be: How prescriptive would 
it be? Because what we will get from the local and State 
government is they are going to want more flexibility, but 
understand your concern that in lieu of funding something 
against something else, we want to make sure that we are still 
addressing the interest in the parties that Congress set in the 
base funding. These are the areas that we should be focusing on 
to enhance capabilities at the local and State level.
    Ms. Richardson. I am going to give you a compliment, sir. I 
have been very impressed with how you have run FEMA, and I look 
forward to your recommendation of what you think that should 
be. I would be happy to look at it and see if I disagree. But I 
have a tremendous amount of respect for you.
    I think the key is as long as we are holding them 
accountable to have to say in writing that they are meeting 
these other aspects, so if you see that they are not, then you 
would have to then consider our side and say, maybe this whole 
consolidation isn't working, and we do need to put in these 
requirements. But we have got to have some sort of measurements 
or some sort of documentation to verify that on the front end. 
But I will work with you on that.
    Mr. Fugate. We will have staff put together some of that 
and provide you some examples of what we would look at and get 
your input.
    Ms. Richardson. Okay. Thank you, sir.
    My next question would be: As you are well aware, State and 
local budgets depend upon Federal dollars to supplement their 
homeland security needs. Considering that grant guidance awards 
are dependent upon the passage of appropriations bills, what 
impact will passage of an appropriations measure in the middle 
of a fiscal year have on the grant award process this year and 
for next year?
    Mr. Fugate. Well, in the current process, we are held up. 
Probably one of the more immediate concerns that--I believe 
there are some folks in the audience representing the 
International Association of Emergency Managers, which are 
primarily our local emergency managers--is the Emergency 
Management Preparedness grant funds. These are 50/50 grant 
funds the States and locals match with 50 percent State and 
local dollars, 50 percent Federal, that are tied to the 
salaries of many of the employees that provide the planning and 
preparedness activities that occur throughout the country. As 
we are coming up on many States in the middle of their fiscal 
year, a further delay there may start to result in States no 
longer able to fund those positions, could result in reductions 
in staffing or layoffs. So that is a concern.
    The other concern is the short window that we will have 
when we do get a budget to get grants executed and provide 
grant guidance. What we have been working on is trying to get 
everything done up until we get the appropriations so that it 
is ready to go. We put out the draft guidance based upon the 
original request, then we will adjust that based upon the 
actual allocations and authorizations in the budget or any 
additional guidance.
    But a primary concern, I think, for State and local 
governments is really the Emergency Management Preparedness 
grants because it is one of the very few grants we have that 
actually funds positions in many parts of the country that 
would not otherwise have these positions. Because that has 50/
50 money, as they go through their fiscal year, they are 
rapidly reaching the point that they can't sustain that without 
some indication of that funding.
    Ms. Richardson. Mr. Chairman, maybe you and I could have a 
follow-up discussion about considering to bring something 
forward, stand-alone, that would protect this obvious 
vulnerability that we might have.
    Mr. Bilirakis. Sure.
    Ms. Richardson. Thank you. I yield back.
    Mr. Bilirakis. Thank you.
    I now would like to welcome the Ranking Member of the full 
committee Mr. Thompson and recognize him for 5 minutes.
    Mr. Thompson. Thank you very much, Mr. Chairman. I ask 
unanimous consent that my written comments be included in the 
record.
    Mr. Bilirakis. Definitely.
    Mr. Thompson. Good morning, Mr. Administrator. How are you 
today?
    Mr. Fugate. Doing good, sir.
    Mr. Thompson. One of the things that we had a conversation 
about in the past is the number of disasters that we haven't 
closed out. I think it is probably over 600 or 700. Can you 
give the committee a briefing as to where you are and what the 
plan is going forward?
    Mr. Fugate. Yes, sir. We have gone back and began the 
closeout of disasters. As you know, those older disasters 
oftentimes have funds that have been allocated but we know will 
not be needed that we need to deobligate, put them back into 
the Disaster Relief Fund.
    Last year we spent a lot of time trying to close out open 
Federal missions and contracts that were still out there, but 
were no longer needed. This year we are turning our attention 
to the disasters that we know the work has been done--we are 
literally just waiting for the final closeouts--and putting 
teams together, particularly with our chief financial officer, 
and going out and doing the financial closeouts of disasters, 
but also looking at disasters that work has been done, but we 
haven't closed out, like the immediate debris and emergency 
public assistance. We still have dollars allocated, but the 
State is not going to draw them down--they have already done 
their work--and basically get that money back into the Disaster 
Relief Fund. So we are looking to close that out.
    If you would like, I can get staff to give you kind of an 
update on where we are at, how many are open, how many we 
closed last year, and what our target is for closing this year.
    Mr. Thompson. I would, because I think the Membership of 
this subcommittee and the full committee should know that we 
have over 700 disasters that are still out here that we are 
trying to work on. It is a lot of balls to have in the air at 
one time and while trying to anticipate future disasters. I 
guess my question is, from a budgetary standpoint, are you able 
to roll this money over for those disasters, or is this 
included in the annual FEMA budget allocation?
    Mr. Fugate. As I understand the terminology, this is non-
year money. So as we are able to recoup money back from the 
disasters, it goes back into the Disaster Relief Fund that 
would be applied against new disasters and current open 
disasters. Last year we were able to recoup out of open 
missions that we had not closed out until last year about $2 
billion that had been allocated, but was no longer needed. I 
mean, this is, again, very substantial, as you point out, why 
we have to go back and close these disasters out.
    So we are working right now to go back into where we have 
provided, through the public assistance program, dollars that 
are no longer needed, or the work has been done but has not 
been formally released back into the DRF, and close those out 
and put the money back into the DRF for the disasters we 
currently have and for the future disasters.
    Mr. Thompson. Can you, in the information you provide to 
us, indicate whether or not the staffing needed to complete 
that mission is adequate; and if so, can you project some kind 
of timetable for closeout?
    Mr. Fugate. We will do that, sir.
    Mr. Thompson. With respect to the decentralization of 
operations, give the committee some of your feelings as to 
whether that succeeded, work in progress, or just what we need 
to do.
    Mr. Fugate. It is moving well, I think. I mean, I remember 
that one of your concerns to me was the tendency that we had 
all of these big National contracts, and we weren't hiring 
local. We were able to do some significant local contracting in 
response to the Tennessee floods as well as the floods in 
Georgia. One of the things that our acquisition team did and 
took to heart, your direction from last year, was we put 
together teams to go out and support the response and 
essentially adopt a philosophy that basically says in a 
disaster, as much as possible, we need to hire local and buy 
local, those services that communities can provide, not bring 
them from the outside.
    So we can give you an update on that as well, the teams 
that are out there. We have been able to demonstrate it in 
several of these disasters where we have been able to 
significantly increase the amount of local purchasing that we 
are doing versus everything coming from the outside.
    Mr. Thompson. Just as a backdrop to that, indicate whether 
or not it limited your ability to address that emergency by 
doing that. Did it cost any more? Was the time frame any longer 
because of that? Or if you feel comfortable in answering them 
right now, please do.
    Mr. Fugate. It was the right thing to do, and it was cost-
effective to do, sir.
    Mr. Thompson. Thank you. I yield back.
    Mr. Bilirakis. Thank you.
    Now I want to recognize Mr. Marino from the great State of 
Pennsylvania, our vice chair.
    You are recognized for 5 minutes, sir.
    Mr. Marino. Thank you, Mr. Chairman.
    Good morning, administrator. It is good to have you here.
    Mr. Fugate. Thank you, sir.
    Mr. Marino. I want to thank you for entertaining us last 
month. I look forward to coming back.
    Let us switch gears here a little bit. Let us talk about 
procedure. Being in law enforcement for as long as I have, and 
being involved in disasters in my State, what modifications, if 
any, and what is your policy on FEMA communicating with the 
first-line responders prior to an incident?
    Mr. Fugate. Well, on the preparedness phase, we work quite 
extensively back through our various associations, through the 
various groups in training preparedness. But when it comes to 
disaster response, that process does go through the State. It 
is not so much policy as the way the statutory language within 
the Stafford Act, and how the construct is is that Governors 
support their local governments through their emergency process 
and, at the point where it would look to require Federal 
assistance, make those requests to us. We provide assistance. 
Generally in what we would call disasters where they are 
seeking primarily recovery assistance in the recovery-
rebuilding assistance to individuals, that process generally 
works with us reaching out through the States, working with the 
States, and then, as those requests come in, working on those 
requests.
    But as we know, some disasters can occur with little notice 
and can be such that we know it is going to require Federal 
assistance. That process is much faster. One of the things that 
this Congress did after Hurricane Hugo was amend the Homeland 
Security Act to give us more authority to respond prior to a 
Governor's request. But in response to a disaster, you are 
going to find us working with the Governor's team as we support 
local governments.
    That is the construct and how it is set up statutorily as 
well as how we are organized, but that doesn't mean we don't 
talk. In fact, one of the things that we have instituted with 
the emergency managers at the local level is not only talking 
with our counterparts at the State, but also holding routine 
conference calls with our representatives in the International 
Association of Emergency Managers, which are primarily 
representing the local emergency managers, so they have input 
as we are discussing issues and policies.
    We are also trying to do something a little bit 
differently. I was always very frustrated at the State and 
local level that oftentimes we never really felt like there 
was--we weren't part of the team. It was almost like FEMA was a 
big brother, and we worked for them when a disaster happened. 
We are trying to change that and go, no, we work for you. We 
are a support agency. So as we work through the Governor's 
teams, we are trying to maintain that dialogue on a day-to-day 
basis in which we prepare, but when we respond, we look to the 
Governor's team to support the local responders.
    Mr. Marino. Thank you.
    I understand the process if there is a disaster, but can 
you explain to me what method a first responder, a county would 
have concerning information that is required to prevent 
situations or to respond to them directly with FEMA? Is that 
possible?
    Mr. Fugate. Yes, sir. In fact, one of the initiatives we 
have taken is that in order to ensure that FEMA understands 
what these challenges are, we are currently working to detail 
staff to metropolitan cities on a basis where we will assign 
people for 3 months to do that directly with cities.
    We do a lot of our--particularly through the Urban Security 
Initiatives, but through other programs--work directly as part 
of a team. We really try to not bypass our State partners, but 
actually work with our State partners and local partners as one 
team, because the divisions don't really work in a disaster. So 
we try to make that information available. We provide that 
access through our regional offices. But we also want to make 
sure that we are not keeping the State out of the loop. We want 
them as part of the team. But we provide that access.
    Mr. Marino. My time is limited here. Let us switch it over. 
We certainly are aware of the debt that we are in, the budget 
cuts that have to be made. What are we doing to assure that the 
money, the great money that is out there, it is being used 
wisely, we are purchasing the equipment that we need and not 
the Cadillac that we do not need? What happens with that 
equipment after the disaster?
    Mr. Fugate. Well disaster responses, we tend not to buy. We 
lease. So we, again, try to minimize our overhead cost by 
reoccurring cost afterwards. Generally our funding does not 
provide for, in the disaster response, purchasing equipment, 
but merely leasing what we need during a disaster.
    But our grant programs for the State Homeland Security 
grants, the Urban Security Initiatives and other grants do 
provide for things like vehicles, equipment, detection and 
stuff. I think this is one of the areas that in looking at the 
National Preparedness Task Force and their recommendations back 
to us of how do we measure outcomes and not look at the 
widgets, and because of the reduced funding and the pressure 
that local and State governments have is really getting down to 
what are the things we need to be successful in our response, 
not necessarily things that would be nice to have. So this, 
again, puts more emphasis, as was pointed out earlier--is doing 
a better job of assessing those things that really indicate we 
are better prepared and we have capabilities versus merely we 
have gone out and expended certain amounts of dollars.
    Mr. Marino. Okay. Thank you. I yield back.
    Mr. Bilirakis. We will have a chance for a second round as 
well.
    Now I would like to give the gentleman from Michigan an 
opportunity. You are recognized, sir, Mr. Clarke, for 5 
minutes.
    Mr. Clarke of Michigan. Thank you, Mr. Chairman.
    Administrator Fugate, as a new Member of this committee, I 
want to share with you that I feel confident that when you 
state that you are not going to be cutting back on capabilities 
necessarily, but looking at how your Department can be more 
efficient, that gives me confidence in how you are operating 
FEMA.
    I also want to commend you on your service in Florida. You 
have a great reputation. I checked you out. The fact that you 
know first-hand about what we have to deal with as a volunteer 
first responder yourself.
    I represent Detroit, the Detroit border sector, and as you 
are aware of, it is the busiest border crossing bar none in 
North America. We have a huge population center--multicounty, 
multijurisdictional population center--international airport, a 
large regional water system and other demographics that put us 
at high risk of either a terrorist attack or other catastrophic 
incident. I have got three questions. They are all related to 
the security of the Northern border and that sector in 
particular.
    But back in 2008, the GAO had recommended that DHS change 
its methodology and how it measures vulnerability in 
determining how it assesses risks and allocates funds in that 
particular grant program. Would that change, by accounting for 
regional differences, after the risk assessments for urban 
areas?
    Mr. Fugate. Well, the short answer is based upon both the 
infrastructure and location and population is one factor we 
looked at. But we also have what is the threat stream, what is 
the intelligence telling us where are things being targeted. 
That is what we have used. That has been evolving as we look at 
the changing threat of no longer looking at necessarily 
adversaries from the outside coming here to attack us, but also 
looking at individuals here that may also be part of or may be 
organized or unorganized in their efforts to disrupt or attack 
the United States.
    So the efforts are really based upon what is the existing 
infrastructure in populations, but also what the intelligence 
community is telling us the threats streams are saying, these 
are the areas of interest, these are the areas being mentioned, 
and the frequency of that drive those determinations for that 
funding.
    Mr. Clarke of Michigan. You also mentioned that, you know, 
when our first responders aren't in good shape, we are not able 
to better protect our homeland. In the city of Detroit, the 
first responders are in bad shape because of fiscal issues. Do 
you take the security of the first responders and their own 
capabilities into consideration in determining the risk 
analysis under UASI?
    Mr. Fugate. It is basically less about individual 
departments as much as we know the size of the agencies and the 
level of--based upon the size of the communities and the type 
of infrastructure or protection. It is really coming back to 
where do we see both the vulnerabilities of the community and 
the intelligence which is then used to determine that. Then 
based upon that is what kind of additional funding--and if you 
can look at the grant programs, when you do get those fundings, 
that is really driving at making sure, No. 1, the responders 
are trained to deal with weapons of mass destruction and 
terrorist attacks, they have the equipment and protective gear 
for that, but it also brings in other aspects, such as 
intelligence and fusion centers and information to support 
that.
    Merely building a capability to respond isn't all that 
these grants are trying to do. They are also trying to prevent 
and deter these threats. So if those are the areas that are 
identified, then that funding does go for protection, but it 
also goes for a wide range of activities to not only be ready 
to respond, but also to try to prevent or deter a threat.
    Mr. Clarke of Michigan. Thank you, Administrator.
    One last question with the time that I have. It is 
regarding Operation Stone Guard. With the Detroit border 
sector, it accounts for nearly 10 percent of the Northern 
border, yet only 4 miles of that border are under what CBP 
considers operational control. In the President's budget 
proposal, it limits the eligibility of that program to Southern 
border activities. In that context, how do you think that we 
can best coordinate border protection among the various 
jurisdictions in the northern border, especially in the Detroit 
sector, with that shift in Operation Stone Guard and 
eligibility to the Southern border?
    Mr. Fugate. Well, as a grant administrator, I am not the 
one that determines the priorities, but I know that we have 
been working closely with Canada on how we expand various 
things that would support the Northern border. But the priority 
would continue to be the southern bordering States, merely 
because of the level of violence that is occurring along those 
areas, the drug trafficking, the most recent loss of life, 
including an ICE agent.
    So that will still remain a priority with the funds that we 
have, but as the grants administrator, we take the guidance 
that is provided to us by our other components within the DHS 
to apply those funds. But it is going to continue to be a 
significant focus on the southern borders just because of the 
level of violence going down there at this time.
    Mr. Clarke of Michigan. Thank you, Administrator Fugate. I 
yield back.
    Mr. Bilirakis. Thank you.
    Now I would like to recognize Mr. Farenthold from the great 
State of Texas. You are recognized, sir, for 5 minutes.
    Mr. Farenthold. I just have one question that came from the 
Texas Division of Emergency Management. One of the on-going 
concerns that we have on the Texas Gulf Coast is the landfall 
of the hurricane, something that we all dread, but we all 
prepare for. I would like to get clarification about how FEMA 
plans to reimburse for emergency measures pre-landfall.
    A couple of times we have had a threat of a hurricane 
specifically in the Corpus Christi area, and the good Lord took 
care of us with a turn in the hurricane, but we had already 
spent substantial resources mobilizing ambulances and the like. 
Is this something that the States are just going to have to 
eat, or does FEMA have some plans to help out with that?
    Mr. Fugate. You are not going to like the answer, but guess 
what? Responding to the additional evacuation of a hurricane is 
a primary responsibility of State and local government. As an 
emergency manager in Florida, we had numerous storms that we 
evacuated for and never got the first penny from the Federal 
Government. It was a cost of doing business in a great area and 
a great climate, but we had hurricanes.
    The Federal assistance is designed when it exceeds the 
capability of the State and local governments. So we look at 
the size of the storm, the intensity, the category. We 
preposition equipment and move supplies. But merely because an 
area does protective measures does not always warrant or 
demonstrate or exceed the FIT capabilities. So we do look at 
the size of the storm. We look at the amount of evacuation. We 
do encourage our States to be proactive, but it is not a 
guarantee because they are evacuating there will always be a 
declaration.
    I went through several hurricanes in Florida where the 
State spent over $20 million between the State and local 
government responding to, and getting ready for, and never 
being hit by a hurricane without the first offer from the 
Federal Government. It is unfortunately the price of paradise 
we have to prepare for.
    Mr. Farenthold. You are not going to find me arguing with 
turning as much over to the State and local governments as 
possible. But I do think the States need to know what they are 
going to be responsible for in order so they can do appropriate 
planning. So I don't dislike your answer as much as you would 
think, but we do need a level of clarity, and we understand 
that living on the coast has its price.
    Mr. Fugate. We work very closely through our regional 
office, Tony Russell working with the director there in Texas. 
I think that we went back and we look at our guidance which 
basically says when a major hurricane is threatening, you are 
evacuating a large substantial population, an emergency 
declaration may be warranted. That does not preclude us from 
pre-positioning or moving supplies. We are not going to let a 
State fail over this, but we also recognize that it was never 
the intention of the Stafford Act to always pay for the 
reoccurring cost of being prepared against hazards that are 
known and part of a State's history.
    Mr. Farenthold. Thank you very much. I yield back.
    Mr. Bilirakis. Thank you.
    I believe we have time for a second round since we 
basically kept to that 5-minute rule. So I will recognize 
myself for 5 minutes.
    The Department's inspector general issued a report in 
December about FEMA's issuance of a Fire Prevention and Safety 
grant to ACORN--and we have discussed this in the past, 
administrator--wherein the inspector general determined that 
FEMA should not have awarded the grants at issue. In its review 
it found that FEMA generally focuses its financial and 
programmatic oversight on recipients of large grants rather 
than using a risk analysis to identify necessary oversight. 
FEMA indicated that it has since moved to a risk-based method 
to monitor grants.
    Can you please discuss FEMA's general method of grants 
monitoring and how you determine which grants should receive 
additional oversight?
    Mr. Fugate. Mr. Chairman, I will be really broad in this 
because I would rather provide this in writing, because there 
were some very specific processes and procedures that were 
implemented in the grant shops based upon the IG's report, and 
we did take those and we did implement those.
    But in general what we do look at is those organizations 
which may not have the financial backing to monitor a grant, 
but would otherwise qualify for a grant. We know that some 
organizations, they just don't have the institutional history 
that would suggest they have done Federal grants before and 
understand all the process. We can provide more technical 
guidance and look at that. So we don't just rule somebody out 
that would otherwise be eligible because they may not have had 
a history of managing grants, but we do look very closely at 
how and what capabilities they have from the financial aspects 
of managing a Federal grant and the requirements that tie to 
that as we look at those awards.
    The other thing is we have gone back and made sure that we 
use a peer review process in those grant programs, and we want 
to--again, as the IG pointed out, it is not to get into a 
situation where we do have the final say in making those 
determinations, but we want to make sure we are not discounting 
the peer review process and making arbitrary decisions. So we 
try to go back and take those IG findings. We have implemented 
them, and we can come back with a more detailed report. But our 
goal here is not to say that an organization would not be 
eligible merely because they haven't had a history with grants, 
but what additional requirements will be placed on that grant 
to make sure that those moneys are spent effectively the way 
they were intended for, and that they have the accountability 
and the financial institutional controls in place to protect 
that money.
    Mr. Bilirakis. Okay. Very good. But you will provide 
something to our committee? I think all the committee Members 
would be interested in a response in writing regarding that. 
Thank you.
    I know Ms. Richardson is interested in this as well. Can 
you please provide the subcommittee with an update on the 
status of FEMA's efforts to recoup any improperly paid disaster 
assistance, how many claims are at issue, and when will 
individuals begin to receive notices of debt?
    Mr. Fugate. Yes, sir.
    Mr. Chairman, the recoupment process was halted by a 
Federal court that found that FEMA's process had issues and 
essentially required that FEMA withdraw from the Federal 
Registry our recoupment process until such time as we were able 
to address their concerns. This means that any disaster since 
Hurricane Katrina, we have not been able to move forward with 
recoupment because we do not have a Federal Registry notice of 
that process. We still do recoupment from older disasters.
    We are in the final stages of updating that process. We 
will be able to report back to you, I think, later this week, 
Mr. Chairman, the exact time frames that we are working on. But 
our first goal is to go back through about 160,000 in the 
Katrina-Rita, plus additional ones from more recent disasters 
would require recoupment.
    We have gone back through and looked at each one of these 
cases to, A, identify: Was there fraud involved? Which is a 
different matter, and we don't have to have the Federal 
Registry notice for Government recoupment. We are taking those 
and looking at prosecution where we have fraud--and you will 
periodically see cases where people have been arrested or 
sentenced based upon that--and in going back through and making 
sure that the people that we think owe us money back, actually 
owe us money back, and it is not just an issue that 
documentation that we didn't have matched up. So we want to be 
fair and equitable about this, not go back and ask people for 
money that should have gotten it but we didn't have the 
paperwork caught up. Then as we go forward is to look at the 
time frames of implementing this. But I think we will be able 
to, by the end of this week, come back to you and actually give 
you the dates and the time frames as we go through this 
process.
    But our goal is to begin that recoupment and start that 
process back up, particularly since this court case and our 
Federal Registry notice, we can't do any recoupments on the 
recent disasters. Oftentimes this may be where we had 
duplication of payments, where they had insurance that finally 
paid but had gotten FEMA assistance earlier and all that money 
back. So it is important for us to get this process started 
back up.
    Mr. Bilirakis. Okay. I will go ahead and yield 5 minutes to 
the Ranking Member Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    Mr. Fugate, how does the budget request support the effort 
to move forward on implementing the IPAWS system? Could you 
give us an update of this situation with American Samoa? Do 
they have a current alert system in place?
    Mr. Fugate. We have a reduction in the IPAWS program. This 
will delay some construction that is scheduled to work on some 
of what they called the Primary Entry Point Stations, but it 
will not affect us from going forward next year with the 
National test of the Emergency Alert System. We can give you 
updates on that. But we did make some decision there that we 
would delay some of the construction costs, but it does not 
mean that the program won't be able to implement the primary 
warnings. It just means some of the projects that were 
scheduled in the future will be delayed.
    We are working with the Government of American Samoa on the 
Tsunami Warning System. I don't have the exact information on 
where that is at, but we can provide a written report back to 
you. That was one of our priorities that I believe we discussed 
with you, the importance of getting a Tsunami Warning System, 
and not just a system, but actually the training and education 
for the population in place as well. I will provide an update 
on that.
    Ms. Richardson. Okay. Thank you, sir.
    The full-year 2012 requests a decrease in the 6.6 reduction 
for U.S. Fire Administration. They have an extensive aging 
infrastructure. What are your thoughts about that area?
    Mr. Fugate. Again, these were not easy decisions to make, 
but we had about $23 million in repair and maintenance that we 
had throughout the regions as well as with the National Fire 
Academy. It is actually called the National Emergency Training 
Center because it is the Fire Academy and the Emergency 
Management Institute.
    We actually have a project right now to do some work on the 
heating systems. Again, we are looking at what are the steps to 
provide effective systems, but it was not the original 
proposal, so we are having to scale back. We will be deferring 
maintenance, and we will not be doing some of the enhancements 
to some of the structures we would like to do. But again, these 
are issues that we have made a decision that we will push those 
out versus cutting into the ability to respond, or operate, or 
provide additional support and funding to our local and State 
partners.
    Ms. Richardson. So it is to defer, but not to end.
    Mr. Fugate. Many of these will be deferred. Our priorities 
are still going to be life safety and accessibility issues we 
have, and right now we are continuing to work within our 
current budget on funding for right now the heating system out 
at the National Emergency Training Center, which needs 
replacement, and how we are going to go about doing that this 
year.
    Ms. Richardson. Mr. Fugate, as you know, I have stated 
before my concern about the disability coordinator, and it is 
my understanding you have put folks in the various regions. 
However, I think it would be a little unrealistic to have a 
disability coordinator with absolutely no staff support.
    So could you answer--and I have only got 2 minutes left, 
and I have two more questions, so if you could summarize your 
response quickly.
    Mr. Fugate. The office here does have staff. The positions 
in the regions are the advisers--they are called integration 
specialists--to work with all the programs. But we can give you 
an update on the current staffing here. But I think we have 
some additional items we can provide you on that as well to 
give you an update of the status of that office and its 
activities.
    Ms. Richardson. Sir, in developing the full-year 2011 and 
full-year 2012, the Transit Security Grant Program guidance 
evaluation submissions, how will FEMA ensure transparency in 
the evaluation and selection of projects and avoid discounting 
the risk to a region due to differences in needs, because I 
know that has been a big complaint of State and local 
government.
    Mr. Fugate. We will try our best. This will always be one 
that, because of the variations in the various transit systems 
and things we are trying to do, we have really been working 
with our partners at TSA, the Transportation Safety Agency, on 
working on the grant guidance and the direction there. So that 
is another one I will have to get back with you. But it is 
actually a partnership. Again, we are the grants administrator, 
but the Transportation Safety Agency actually provides a lot of 
the input on what the priorities should be.
    Ms. Richardson. Finally, sir, I have got 46 seconds: How 
can we help you? I don't think we say that enough, and I wanted 
to give you an opportunity to say if there is something we can 
assist you with to better fulfill your mission and the mission 
of the folks that work for you.
    Mr. Fugate. Well, it was always tempting to go, I can 
always use more money, but I know that is not the answer I am 
going to give you. But what I do need, you have the ability of 
reaching back in your districts, listening to your constituents 
and their concerns. I oftentimes feel, as we spoke earlier, 
that we have this big megaphone, and we shout out a bunch of 
stuff, but we don't always know if it is being heard, or if it 
is reaching the right audience, or it is the right issues we 
need to address.
    So I think the biggest thing that you can do for us is to 
give us that feedback and give us the real world versus that 
perception that we may have here in Washington, well, this was 
going good, but the reality on the ground is that is not what 
is happening, and you need to know that.
    Our goal is always not to be defensive and say, well, 
something went wrong, it wasn't our fault. It is like, no, we 
need to work on this and fix it, and if we don't know, we can't 
fix it.
    Ms. Richardson. I will work with you and the Chairman on 
that very issue. Thank you, sir.
    Mr. Bilirakis. Thank you very much. We don't hear that very 
often in Washington, DC. It is very refreshing. We will take 
you up on that offer.
    We have Mr. Thompson, the Ranking Member. You are 
recognized for 5 minutes, sir.
    Mr. Thompson. Thank you, Mr. Chairman.
    Administrator Fugate, I am a resident of a rural area, and 
one of the things that you hear people saying is: What do I do 
in case of emergency? Let us focus on vulnerable populations, 
handicapped and disabled. Have we put in place the operational 
scenario that if a disaster occurs, we know who these people 
are, and how to move them from that point of harm to safety?
    Mr. Fugate. The short answer is there are two schools of 
thought. One is we do registrations and try to get people to 
self-identify, and the problem with that is most people get 
very concerned about giving out their information and 
identifying their needs and vulnerabilities. The other is to 
look at population and demographics and just plan for it being 
inclusive on the front end.
    Again, if we are evacuating populations, but we don't have 
buses that are wheelchair-accessible, then we have an issue. 
But if we are providing buses that are wheelchair-accessible 
for the evacuation in the first place, then we have addressed 
this.
    So this is kind of the idea. We already know that a certain 
percentage of our population has various disabilities. We 
already know a certain percentage of our population are infants 
and children. We already know a certain population is fairly 
elderly. Why don't we plan for that instead of trying to bolt 
on something after the fact?
    So this is what we are trying to do is really focus in on 
quit writing all these annexes and go: Look, you are going to 
have kids in every disaster, so why aren't you sending infant 
and baby supplies when you are sending food? Why are we sending 
buses that aren't accessible, because then we have the issue, 
well, how do we move people in wheelchairs? ADA has been around 
long enough. You can contract buses that have the ability to do 
that.
    So it gets back to why don't we plan for really what goes 
on in communities versus just doing the easy stuff and then 
figuring out how we are going to deal with special populations.
    Mr. Thompson. So how can FEMA push down that concept to 
State and locals that you absolutely have to do this?
    Mr. Fugate. In our grant guidance and in how we operate. We 
changed one of our basic planning documents, which was the 
basis that we provided State and local governments on how to 
formulate your community disaster plans.
    Historically what we did was every time we found a 
population that we didn't take care of in our basic plan, we 
wrote an annex. The problem was our annexes were actually more 
people than our plan was taking care of. So we have done a 
rewrite of that to put these issues on the front end and really 
focus on this idea of being inclusive and address these issues 
up front.
    But part of it is simply grant guidance. I will give you a 
very simple example: Smoke detectors. One of the things that 
the Assistance to Firefighter grants have done a lot of is 
provide grants for smoke detectors. The problem with that is 
unless you put specific language in there to be inclusive, 
people that are deaf or hard of hearing, a smoke detector does 
them no good unless it has the flashing lights and other 
devices, and that tends to be a little more costly, and it was 
easier just to hand out the smoke detectors. So we wrote grant 
guidance in that you needed to factor in and make available in 
your smoke detector programs an amount that would meet the 
needs for people that were deaf or hard of hearing.
    So part of this is getting ahead of it in the grant 
guidance and putting in the stuff about how to be inclusive. 
The other thing is you got to actually do it, and so building 
these things into our program so that we are addressing it.
    Mr. Thompson. So can you provide the committee with where 
you think we are in identifying these populations?
    My reason is in preparing for the hearing, I find that we 
have a plan for pets, but not for people with disabilities, and 
I think that is ironic. I have a pet, too, and Chico is part of 
the family, but I absolutely want us to make sure that we take 
care of the other populations. So you see where I am going?
    Mr. Fugate. Yes, sir.
    Mr. Thompson. Okay. As one of those individuals who was a 
victim of Katrina, though not having been directly impacted, 
people came to my community, I see you are in the process of 
doing this recoupment. I think that it is a real problem for us 
now to try to reach back 5 years-plus and ask people to produce 
records that we know they don't have. I would say to you, with 
all sincerity, you should rethink it, because I think what you 
are creating is a fundamental nightmare for families who had 
lives interrupted, and I can't imagine being able to produce 
those records 5-plus years later to the satisfaction of any 
Government agency.
    I think the reason I am saying this is, you know, we made 
loans to communities to rebuild infrastructure, and we 
converted those loans to grants, and everybody said, fine. So 
here we are going to take Mr. Jones, we gave him $2,500 5 years 
ago, and said, oh, by the way, 5 years later, we need your 
records. I think that is asking a bit much of Mr. Jones.
    So, if you would, before we go out there and all of us get 
inundated with people saying, why are you doing this to me, I 
am just getting myself back together, I think it would be 
appreciated.
    Mr. Fugate. Again, given the authorities that we have, we 
have to do the recoupments. We are trying, though, to address 
your concerns in making sure that if it was fraud, we are 
dealing with it as fraud. If it was the documentation and 
things that would support that they were a valid claim, we are 
trying to do that on the front end before any notices go out. 
So we have been going through about 168,000 of these records. 
But we will have to go forward at some point with recoupment, 
because not only is it for those disasters, it is for current 
disasters as well.
    So we understand, and we are very sensitive to this issue, 
but we do not have the ability not to go forward where there 
was a duplication or people were not eligible, particularly 
those that were not residents or directly impacted by the 
disaster. We would still require to go seek those funds back.
    Mr. Thompson. If the Chairman would allow, I understand 
that. But notwithstanding what you are about to do, I think 
people would reasonably expect 6 months or a year after the 
emergency you come back. It is almost like the IRS showing up 
and saying 5 years later, we need your records. So I just think 
that hopefully we can provide some relief to you legislatively 
that can help with that, but I see that as a problem. The 
fraud, go after it. But I think poor bookkeeping and some other 
things will get sucked up into that same dragnet.
    Mr. Bilirakis. Thank you, sir.
    I now would like to recognize Mr. Marino for 5 minutes.
    Mr. Marino. Thank you, Mr. Chairman.
    Administrator, I agree with my colleague to a certain 
extent. But let us focus on the large-scale fraud issues. Let 
us focus on the individuals, if you would, please--it is a 
request from me--on those who have profited and are still 
profiting from the deceit and fraud that they committed during 
one of the most horrendous disasters that we have seen.
    Switching gears a little bit again, I read an article and 
then saw coincidentally maybe a couple of weeks ago on a 
newscast that there was an individual down in Louisiana, a 
woman, who was not going to leave her modular home, and she had 
nowhere to go, and my heart goes out seeing someone in that 
circumstance.
    But could you elaborate a little bit on what happened with 
or what is being done with those modular homes? Were they 
leased? The Federal Government, does it own them? Are they 
sitting somewhere not being used?
    Mr. Fugate. Those were purchased as part of the temporary 
housing program. The ones that are not occupied we have gone 
back and retrieved. The ones that are still out there by and 
large still have somebody in them. We are working with the 
State and local officials. In fact, the City of New Orleans is 
moving to have all of those condemned and moved out and get 
people to go to other locations.
    We have been doing--I think this is something this 
committee and the full committee was very concerned about was 
not doing good case management and working to help people get 
to a long-term solution.
    Mr. Marino. Let me interrupt you for a moment, if I could, 
please. I don't want to run over my time here.
    When you say ``condemned,'' what reason are they condemned? 
Are these not liveable anymore? Is this a situation where we 
buy all this stuff with good intentions, and now we are done 
with it, and we have a shipyard full of modular homes? Could we 
not sell them? If it got down to the point people who can't 
afford to have a place to live, why don't we just give them to 
them?
    Mr. Fugate. Some of that has occurred. The ones that have 
been turned back in were in the thousands and tens of thousands 
and hundreds of thousands, have been surplussed and disposed 
of. The ones we currently have are under 1,000. You have to 
understand, we were like a couple hundred thousand occupants.
    Probably ``condemned'' isn't the right term. What the city 
is doing is they are zoning them out and no longer allowing 
them to be permitted in the city, basically because they want 
to move forward with their recovery, and having temporary 
housing units still in neighborhoods----
    Mr. Marino. Okay, I understand that, but what is the plan? 
What do we do with them?
    Mr. Fugate. Well, we are working to try to place those 
final families. This is in the less than 1 percentile, but 
these are some of the hardest families and individuals to get 
long-term solutions to.
    Mr. Marino. I understand what you are talking about with 
the families. That is important, and that is critical. But what 
do we do with the--how many hundreds of millions did we spend 
on these units, and what are we doing with them?
    Mr. Fugate. Well, it was more than hundreds of millions, 
and most of them have already been disposed of. The ones we get 
now basically come back in, particularly the travel trailers, 
we are not keeping. We are surplussing those as they come back 
in. Some of those really don't have much salvage value. Some 
do.
    But we can give you a report on that. Last year we did a 
significant amount of disposal through GSA sales and had 
eliminated a large number of those. But, literally, the numbers 
were staggering.
    Mr. Marino. Are they liveable? Can someone live in them?
    Mr. Fugate. Most of the ones that were from the Katrina 
response are not recommended or we do not permit them to be 
used for permanent housing because of formaldehyde issues. They 
have other purposes. They could be used for shorter-term 
occupancy, but not for residential purposes.
    Mr. Marino. Okay. Could you follow up with me, please, on 
what we intend to do with those? Because driving through 
Louisiana, I don't want to see acres and acres and acres of 
modular homes that could be used and could be sold, or 
contractors use them a great deal. If worse comes to worst, if 
someone needs a home and they can't afford it, I would rather 
see that individual be given that at no cost than just to sit 
there and rot away and be an eyesore and what do we do with it. 
It is just a scourge on the landscape.
    I yield my time. Thank you, sir.
    Mr. Bilirakis. I now recognize the gentleman from the great 
State of Michigan Mr. Clarke for 5 minutes.
    Mr. Clarke of Michigan. Thank you, Mr. Chairman.
    Mr. Fugate, I look forward to working with you to help 
better secure the Detroit sector border, and I yield back my 
time.
    Mr. Bilirakis. Very good.
    So now, Administrator Fugate, I thank you for your valuable 
testimony and Members for their great questions. The Members of 
the subcommittee may have some additional questions for you, 
and we ask you to respond in writing, sir. The hearing record 
will be held open for 10 days.
    Without objection, the subcommittee stands adjourned. Thank 
you.
    [Whereupon, at 10:42 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

          Questions From Chairman Gus M. Bilirakis of Florida
    Question 1. FEMA has a number of medical countermeasures listed on 
the Authorized Equipment List (AEL), which enables States and local 
grantees to use grant funds for purchases of such products. These 
include countermeasures such as antibiotics that may help after a 
biological attack; cyanide antidote kits that may help after a chemical 
attack, and prussian blue and potassium iodide that may help after a 
radiological or nuclear event.
    I am aware that a number of first responders would like to be able 
to use grant funds to purchase the anthrax vaccine, a countermeasure 
approved by the Food and Drug Administration (FDA), for their voluntary 
use. These responders are often on the front lines after a disaster and 
see their counterparts on the DOD WMD Civil Support Teams who are 
vaccinated and yet they aren't afforded the same protections.
    Why hasn't FEMA added the anthrax vaccine to the list of medical 
products available to State and local grantees through the AEL?
    Answer. FEMA GPD maintains the Authorized Equipment List (AEL). The 
AEL is a list that is used by grantees to identify which equipment 
types are likely to be approved under the various preparedness grant 
programs. Additions to the AEL are mostly the result of recommendations 
from stakeholders including the Interagency Board for Equipment 
Standardization and Interoperability (IAB). It should be noted that 
FEMA has never received a formal request to add the anthrax vaccine to 
the AEL. FEMA GPD would consider such a request as we do all requests 
but would need to weigh the advantages and disadvantages.
    Question 2. Please describe the specific roles and responsibilities 
for FEMA and the Transportation Security Administration (TSA) in the 
management of the Transit Security Grant Program (TSGP).
    Answer. In accordance with the Memorandum of Understanding signed 
March 22, 2011, between FEMA and TSA:
  <bullet> The Federal Emergency Management Agency (FEMA) is 
        responsible for designing and operating the administrative 
        mechanisms needed to implement and manage the grant program.
  <bullet> The Transportation Security Administration (TSA) provides 
        programmatic subject matter expertise for security in the 
        transportation industry and assists by coordinating the myriad 
        of intelligence information and risk/vulnerability assessments 
        resulting in ranking and rating rail and mass transit assets.
  <bullet> These two agencies with assistance and cooperation of the 
        Federal Transit Administration (FTA), for rail and mass transit 
        systems, and the Federal Railroad Administration (FRA) as 
        needed for freight rail operations, determine the primary 
        security architecture of the TSGP.
    Question 2a. Does the current management structure delay the review 
of applications and allocation of grant funds?
    Answer. No. FEMA and TSA regularly meet the statutory deadlines set 
in the annual appropriations bills for application review and 
allocation of funds.
    Question 2b. What steps have you taken to ensure effective 
collaboration with TSA with respect to the management of the TSGP and 
other agencies such as the Federal Transit Administration (FTA) and 
Federal Railroad Administration (FRA)?
    Answer. A signed Memorandum of Understanding between DHS and DOT 
dated September 28, 2004 outlines the roles and responsibilities of 
each department relative to management of the TSGP. An annex to the 
DHS/DOT MOU is in place between FEMA and FRA with specific regard to 
the Intercity Passenger Rail (IPR) grant program. This annex is 
currently under review to expand upon and provide a more collaborative 
approach for both the IPR and the Freight Rail Security Grant Program 
(FRSGP).
    Question 3. What is the average time frame for the processing of a 
TSGP application from the point of submission, through project 
approval, to the actual release of funds? What are the primary causes 
of delays in this process?
    Answer. The submission of the application starts the 60-day period 
required for FEMA to take action on grant applications. Grant funding 
is then obligated and awarded no later than the end of the fiscal year 
in which funds are appropriated, consistent with appropriations 
language.
    The average time from award date until Release of Funds is 
dependent on multiple factors but is generally within 6 months. 
Fluctuations in this time frame are attributed to the grantee's 
acceptance of award, budget review, and Environmental and Historic 
Preservation (EHP) review. These factors are dependent on the 
complexity and requirements of the project(s), as well as the prompt 
response from the grantee for required information.
    Release of funds requires acceptance of the award, final budget 
clearance, and EHP clearance. These actions are also dependent upon the 
prompt response from applicants/grantees to requests for information 
and required internal FEMA procedures. Some projects move quickly 
through EHP review while others may take a minimum of 45 days (for 
example, those requiring Regional review and consultation with the 
State Historical Preservation Officer). The Release of Funds process 
requires additional coordination, time, and effort among the program 
office and the financial divisions within the Grant Programs 
Directorate.
    FEMA has improved efficiency within the Environmental Planning and 
Historical Preservation (EHP) and Budget Review Processes, while 
providing EHP training to grantee Project Managers.
    FEMA has also phased the release of planning and design funds prior 
to the removal of EHP holds, which provided grantees with the ability 
to begin projects and draw down sooner. For the fiscal year 2011 grant 
cycle, FEMA plans to conduct budget reviews pre-award, to further 
reduce the time frame in releasing grant funds. The below chart 
illustrates the current TSGP grant cycle time line.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 4. How does FEMA work with other components within the 
Department of Homeland Security, such as the Office of Health Affairs 
and the Science and Technology Directorate, when developing grant 
guidance or other FEMA policies?
    Answer. FEMA's Grant Programs Directorate (GPD) works with various 
other components within the Department of Homeland Security (DHS) in 
the development, implementation, and management of the agency's 
preparedness grants. Federal interagency coordination is essential for 
establishing an effective and coordinated response between all levels 
of government. The collaboration of multiple components within the 
Department ensures that technical and subject matter expertise will be 
effectively incorporated into grant guidance and policies. Partners 
work in conjunction with GPD staff to provide effective communication 
to our stakeholders and grant program communities. Grantees benefit 
from a unified response, and support and assistance from the 
collaboration between GPD and other agencies within DHS as is evident 
in the following examples:
    GPD and the DHS Assistant Secretary for Health Affairs and Chief 
Medical Officer (ASHA/CMO), Office of Health Affairs (OHA) collaborate 
in the Metropolitan Medical Response System (MMRS) grant program to 
provide resources to 124 specific communities in developing, 
maintaining, and enhancing medical preparedness systems that are 
capable of preventing, protecting from, responding to, and recovering 
from a public health crisis or mass-casualty event. GPD serves as the 
programmatic agency responsible for the development, execution, and 
monitoring of the MMRS grant program, and serves as the fiduciary agent 
responsible for grant administration, processing, and monitoring of the 
grant awards. OHA serves as the technical subject matter expert in 
medical and health security matters.
    GPD and the DHS National Protection and Programs Directorate 
(NPPD), Office of Infrastructure Protection (IP), Protective Security 
Coordination Division (IP/PSCD), work together in the development, 
implementation, and management of the Buffer Zone Protection Program 
(BZPP). BZPP funds are provided to increase the preparedness 
capabilities and resilience of selected jurisdictions with geographic 
proximity to high-priority critical infrastructure and key resources 
(CIKRs).
    GPD and the Office of Policy (PLCY), Screening Coordination Office 
(SCO) are the two offices responsible for the development and 
implementation of the REAL ID and the Driver's License Security Grant 
Programs (DLSGP). GPD is responsible for grant program development and 
administration, and PLCY/SCO is responsible for policy development, 
program implementation, and strategic oversight. GPD, the DHS National 
Protection and Programs Directorate (NPPD), Office of Emergency 
Communications (OEC), and the Science and Technology Directorate (S&T), 
Office for Interoperability and Compatibility (OIC), work together in 
the development, implementation, and management of the Interoperable 
Emergency Communications Grant Program (IECGP). FEMA and NPPD/OEC also 
participate in the Emergency Communications Preparedness Center (ECPC) 
Grants Focus Group, which coordinates emergency communications grants 
with other Federal Departments and agencies. The ECPC Grants Focus 
Group developed recommendations to ensure common guidance for all 
Federal agencies that administer grants funding emergency 
communications. The recommendations will ensure consistent policies 
across multiple grant programs to assist State, local, and Tribal 
agencies with grant applications and grant administration efforts.
    GPD and the DHS Customs and Border Protection (CBP), Office of 
Border Patrol (OBP) work together in the development, implementation, 
and management of the Operation Stonegarden (OPSG) grant program.
    In the Transportation sector, GPD and the Transportation Security 
Administration (TSA) collaborate to meet responsibilities for 
implementing and managing surface transportation security grant 
programs, such as the Transit Security Grant Program, Intercity 
Passenger Rail Security Grant Program, Intercity Bus Security Grant 
Program, Trucking Security Program, and the Freight Rail Security Grant 
Program. GPD also works closely with the United States Coast Guard 
(USCG) in the administration of the Port Security Grant Program. GPD 
relies on TSA and the USCG to provide programmatic subject matter 
expertise for the grant programs while GPD provides oversight on all 
matters related to grant administration.
    GPD also works with subject matter experts within DHS S&T to 
coordinate the development of technologies and their policies for 
products that eventually are included in the Authorized Equipment List. 
In addition, GPD works with the DHS S&T Office of Standards to ensure 
that the standards referenced on the Authorized Equipment List are 
current.
    Question 5a. One of FEMA's planned accomplishments for fiscal year 
2011 is to develop performance measures to track FEMA's efficiency in 
administering grant programs. In addition, FEMA is developing State 
Accomplishment Summaries that will help evaluate how States are 
utilizing FEMA grant funds. The development of performance measures and 
metrics for FEMA's grant programs is long overdue.
    What is the status of these efforts?
    Answer. In February 2011 FEMA created a working group with the goal 
of developing a core set of measures (7-10) that can be implemented in 
the fiscal year 2012 grant process that track how well GPD administers 
and manages the preparedness grant programs. The group is meeting 
weekly with the goal of having the management and administration 
measures fully developed by July 2011. The State Accomplishment 
Summaries (SAS) have been completed and are currently under review by 
senior members of the administration.
    Question 5b. How will FEMA work with State and local stakeholders 
in the development of the State Accomplishment Summaries and 
performance metrics?
    Answer. FEMA conducted outreach to States to collect data for the 
SAS. States were directly involved in the development and editing of 
all State Accomplishment Summary (SAS) DRAFTS. The National 
Preparedness and Assessment Division (NPAD) and the Grant Program 
Directorate (GPD) cooperated to closely coordinate the collection of 
State and Territory accomplishments received through the FEMA Regions. 
These documented accomplishments were then integrated into every DRAFT 
SAS. These DRAFTS were then sent back to each State and Territory for 
their review and comments, after which NPAD, GPD, and the FEMA Regional 
Offices reviewed and validated each DRAFT Summary for submission to 
FEMA senior management for final review.
    Question 6a. The recent tragedy in Japan has made us reflect on our 
own level of preparedness should we ever experience a similar event in 
the United States.
    Do we have the necessary plans in the rare event of a nuclear 
emergency?
    Answer. Plans are in place at a variety of levels for an emergency 
at a nuclear power plant. The plans and procedures for the communities 
located near commercial nuclear power plants define the leadership, 
roles, and responsibilities at the local, Tribal, and State levels that 
would come into play in the event of a radiological emergency. These 
include the necessary interfaces with Federal agencies with direct 
statutory responsibilities in such an event. At the Federal level, the 
Nuclear/Radiological Incident Annex to the National Response Framework 
defines the leadership, roles, and responsibilities for specific types 
of events.
    Question 6b. Have all countermeasures, such as the stockpiling of 
potassium iodide among other options, been looked at?
    Answer. The study of radiological countermeasures--such as 
potassium iodide (KI), and the stockpiling of these countermeasures--
are primarily the responsibility of the CDC and HHS. The committee 
should seek specific information on National countermeasure stockpiling 
and effectiveness from these agencies.
    Each of the 33 States with a nuclear power plant Emergency Planning 
Zone (EPZ) may set up a KI program within that EPZ. In accordance with 
the specific laws and policies of each these States, 18 distribute KI 
to members of the public in the EPZ both pre-incident and post-
incident, 4 plan to distribute KI to members of the public only post-
incident, and 13 have decided not to distribute KI at all. In the EPZ 
States with KI programs, the Nuclear Regulatory Commission has funded 
replenishment of State stockpiles of KI on a periodic basis to coincide 
with expiration dates of the product.
    Question 6c. What have we learned so far from the incident in Japan 
about our preparedness here at home?
    Answer. We have learned a great deal from the events that have 
unfolded in Japan, and are actively examining lessons learned for 
potential areas that can be addressed in our preparedness efforts. 
Following the disaster, a team from the Asian Disaster Reduction Center 
(ADRC) and the International Recovery Platform (IRP) deployed from 
Kobe, Japan to conduct a Rapid Damage Assessment and Needs Survey. FEMA 
has engaged with both of these organizations and has compiled some 
preliminary lessons learned. FEMA is testing these lessons learned in 
the upcoming National Level Exercise 2011 (NLE 11). NLE 11 is also 
incorporating the use of social media which proved particularly helpful 
in the timely sharing of shelter information in Japan. FEMA will 
continue to examine the lessons learned from Japan and incorporate into 
our preparedness efforts as necessary.
    Question 7. On December 30, 2009, President Obama issued Executive 
Order 13527, Establishing a Federal Capability for the Timely Provision 
of Medical Countermeasures Following a Biological Attack. In the event 
of an anthrax attack, it is likely that State and local response 
capabilities will quickly become overwhelmed. Time is critical because 
chances of survival diminish if individuals are not treated with the 
required antibiotics within 48 hours of exposure.
    I understand that FEMA is taking the lead for the Department of 
Homeland Security in working with the Department of Health and Human 
Services to develop a Federal rapid response capability that will 
supplement the capabilities of local jurisdictions to rapidly 
distribute medical countermeasures during a biological attack. There 
have been a number of studies that highlight the challenges State and 
local first responders will face in establishing the traditional Points 
of Dispensing or ``PODs'' and getting antibiotics to each person in 
need within the short 48-hour window from the time of exposure.
    What solutions have you identified that will ensure medicines get 
to those in need within the 48-hour window?
    Answer. In response to the Executive Order, the Department of 
Homeland Security (DHS) and the Department of Health and Human Services 
(DHHS), led the development of an operational plan describing how the 
United States Government would support States' and local governments' 
response to a biological attack by rapidly providing medical 
countermeasures (MCM) to affected populations. FEMA and DHHS sent The 
Federal Interagency Operational Plan--Rapid Medical Countermeasures 
Dispensing to the National Security Council on September 30, 2010.
    In furtherance of Executive Order 13527, Section 3, the NSS 
requested that the Department of Defense (DOD), in collaboration with 
the DHS and the DHHS, conduct an analysis to determine how the DOD can 
help support existing State and local medical countermeasure dispensing 
operations. DOD is working with three U.S. Urban Area Security 
Initiative (UASI) cities (Los Angeles, Chicago, and the National 
Capitol Region), to determine how they can assist in expediting medical 
countermeasure initiatives following the first 24 hours of a request 
for assistance.
    USNORTHCOM hosted an MCM Interagency Workshop on March 22-23, 2011 
to provide Interagency partners as well as representatives from 
Chicago, Los Angeles, and the District of Columbia, an overview of the 
USNORTHCOM MCM analysis. A presentation of the USNORTHCOM analysis to 
the National Security Staff (NSS) is scheduled for May 18, 2011 with 
final Courses of Action (COAs) expected on or about July 1, 2011.
    Following the FIOP-MCM submittal to the White House in September, 
DHHS and DHS initiated a joint review of the plan to identify critical 
near-term planning objectives. The purpose of the review was to ensure 
progress compared to the plan and to continue to search for new and 
innovative ideas on how the Federal Government's resources could be 
leveraged to augment MCM dispensing operations. Members of the 
Interagency Planning Community met with several of the top UASI city 
health departments to include Los Angeles, Chicago, and the District of 
Columbia to discuss areas where Federal resources can be further 
leveraged to augment local dispensing resource shortfalls. The visits 
with the local health departments revealed robust planning efforts; 
however, the need for additional human capital resources to support not 
only initial, but also on-going dispensing operations, was identified.
    On February 14, 2011 the Joint Executive Steering Committee (JESC) 
for Executive Order 13527, Section 3, met to discuss the workgroup's 
findings and concluded that more could be done to identify potential 
Federal capability pools and develop plans to rapidly protect and 
leverage those pools in the event of an Anthrax attack. It was also 
determined that DHS and DHHS should continue to develop a detailed 
implementation plan to implement the courses of action detailed in the 
FIOP-MCM. A revision of the FIOP-MCM, detailing a comprehensive Federal 
capability, responsible for responding to an aerosolized Anthrax 
attack, will be resubmitted to the NSS by the end of the fiscal year.
      Questions From Ranking Member Laura Richardson of California
    Question 1. In the coming weeks I will be reintroducing, the 
Elementary and Secondary School Emergency Preparedness Planning Act to 
assist local educational agencies and districts located in areas much 
like mine, that find themselves high threat of terrorist attacks, 
natural disasters, or public health emergencies to formulate and 
implement an emergency preparedness plan to provide for the safety of 
all young people.
    Taking into consideration the work that FEMA has accomplished with 
the Commission on Children and Disasters and other stakeholders, please 
explain to the committee how the fiscal year 2012 budget will assist in 
the enhancement of emergency preparedness in schools.
    Answer. FEMA, in coordination with the Department of Education, 
American Red Cross, Corporation for National and Community Service, and 
Voluntary Organizations Active in Disaster (VOAD), has several efforts 
underway to provide practical resources and assistance to 
institutionalize school and community-based youth preparedness 
programs, for example:
  <bullet> Under the fiscal year 2012 budget request, FEMA continues to 
        provide resources for children developed by our Citizen Corps 
        Affiliate Partners, including Get Ready with Freddie from the 
        Home Safety Council, the Masters of Disaster curriculum 
        developed by the American Red Cross, and the Risk Watch 
        curriculum developed by the National Fire Protection 
        Association.
  <bullet> FEMA will also continue to pilot and promulgate programs 
        such as the Student Tools for Emergency Planning (STEP), which 
        teaches 4th and 5th grade students about disaster preparedness, 
        involving their families as they learn.
  <bullet> FEMA's Emergency Management Institute (EMI) will be offering 
        an 8-hour on-line course for school personnel, ``Multi-Hazard 
        Emergency Planning for Schools''; a 4-hour on-line course for 
        emergency managers called the ``Needs of Children in 
        Disasters''; and a 1-week classroom course, ``Multi-Hazard 
        Safety Program for Schools'', which is designed to help the 
        school community plan for all types of disasters.
  <bullet> FEMA will also continue to enhance its Ready website to help 
        parents and teachers educate children, ages 8-12, about 
        emergencies and how they can help their family prepare.
  <bullet> Ready Kids includes a family-friendly site and in-school 
        materials developed in partnership with Discovery Education, 
        Sesame Street, and Scholastic Inc.
  <bullet> There is also a Spanish language version of Ready Kids 
        called Listo Ninos (www.listo.gov). FEMA will also continue to 
        partner with Discovery Education in promoting the Ready 
        Classroom, an on-line educational curriculum program. The 
        program provides K-8 teachers with resources to integrate 
        natural disaster preparedness information into their 
        curriculum.
  <bullet> The on-line resource, www.discoveryeducation.com/
        readyclassroom, offers teachers activities, lesson plans, and 
        multimedia tools that teach students how natural disasters 
        develop and inspires them to build their own emergency 
        preparedness plans with their families.
    Question 2. For fiscal year 2011 FEMA needs $3 billion in funding 
from the Disaster Relief Fund (DRF) to respond to storms, hurricanes, 
blizzards, and other natural disasters. With current funding levels of 
only $1.478 billion for fiscal year 2011, the DRF is estimated to run 
out by May unless a full year is passed. Although funding for fiscal 
year 2012 for the Disaster Relief Fund is increased by 20% to $1.8 
billion do you believe this amount appropriate, or do you anticipate 
additional funding will be needed as has been done in past years?
    Answer. The $1.8 billion requested for the Disaster Relief Fund, 
per standard annual practice, reflects the 5-year rolling average of 
historical obligations for non-catastrophic events (those less than 
$500 million in estimated obligations), less estimated recoveries for 
fiscal year 2012. We also have a robust strategy in place to de-
obligate funds from past contracts and projects that are now complete 
and where we did not spend all the money originally obligated. Based on 
our experience in actively managing the unliquidated contract 
obligations in fiscal year 2010, we are taking the same approach for 
Public Assistance grants in fiscal year 2011, and anticipate that our 
projected recoveries will be greater than the $900 million estimate in 
the fiscal year 2012 budget request. These combined factors leave us 
less likely to need additional funding as has been done in prior years.
    Question 3. Administrator Fugate, you have in the past emphasized 
the need to promote the ``Whole of Community'' concept within emergency 
management. The concept highlights the important role of different non-
governmental agencies in emergency preparedness, which includes non-
profit, faith-based, and private sector entities. Additionally, the 
Department emphasizes the important role of citizens which is 
demonstrated by the recommendation to maintain level funding for a 
relatively small allotment of $13 million for the Citizen Corps grant 
program. Given the many natural and man-made threats we face, how does 
the Department's grant realignment strategy, based on decreased 
dollars, consolidation, and elimination, support the ``Whole of 
Community'' concept?
    Answer. The Whole Community concept will continue to be addressed 
through the use of targeted investments in several homeland security 
grant programs, including the Emergency Management Performance Grants 
(EMPG), the State Homeland Security Grant Program (SHSP), and the Urban 
Areas Security Initiative (UASI). In coordination with FEMA's multiple 
private and public sector stakeholders, FEMA will use their existing 
authorities to incorporate specific opportunities for grantees to 
develop community-oriented projects that would essentially mirror 
projects currently funded by any grants that would be subject to 
consolidation or elimination. FEMA will also modify current investment 
justifications to ensure that Whole Community concepts and objectives 
are reflected in project design whenever possible.
    Question 4. Your written statement references the Emergency Food 
and Shelter program by stating ``it is not a disaster program and is 
not designed to serve disaster survivors''. I would propose that 
resiliency is closing associated with enhancing the capabilities of 
economically disadvantaged communities--both emergency management 
agencies and citizens. Also, that programs such as the Emergency Food 
and Shelter program fits together with your ``Whole of Community'' 
concept since it relies on a partnership with local service delivery 
agencies. What steps has FEMA taken to work more closely with non-
profit organizations that serve economically disadvantaged communities 
on a daily basis? How does FEMA distribute the preparedness message to 
economically disadvantaged communities, especially in rural areas?
    Answer. FEMA is actively partnering with non-profit, voluntary, and 
faith-based organizations that serve economically disadvantaged 
communities. Examples of these partnerships can be found in the Center 
for Faith-based & Neighborhood Partnerships, the Individual and 
Community Preparedness Division, as well as the Emergency Food and 
Shelter Program.
           center for faith-based & neighborhood partnerships
    Recognizing the dynamic, integral, and profound role faith- and 
community-based groups have in creating resilient individuals, 
families, and communities, the Center for Faith-based and Neighborhood 
Partnerships at the Department of Homeland Security (DHS Center) is 
working across the entire Department, and especially within FEMA, to 
build partnerships and strengthen relationships between DHS and 
voluntary, faith-based, and community organizations.
Forms of Engagement
  <bullet> Regional Conferences
  <bullet> National Stakeholder Calls
  <bullet> Informational Meetings and Presentations
  <bullet> Initiative engagement and support (i.e. National 
        Preparedness Month, Black Leadership Forum Summit)
Impacts
    The charge to strengthen community resiliency by building 
partnerships and strengthening relationships between DHS and voluntary, 
faith-based, and community organizations is having an impact in three 
distinct ways. Recent examples include:
  <bullet> DHS Center hosted the Faithful Readiness Conference in 
        Milwaukee. Participants included representatives from Governor 
        Jim Doyle's office, FEMA Region V, HHS Region V, faith-based & 
        community organizations (FBCOs) representing WI, IL, MN, and MI 
        as well as several State and local emergency management 
        agencies. More than 180 participants were in attendance. The 
        conference highlighted lessons learned from recent disasters 
        and partnership strategies among Government and FBCOs to serve 
        the most vulnerable populations before, during, and after 
        disasters.
  <bullet> DHS Center hosted the National Flood Awareness Week 
        conference call with 117 faith-based and community 
        organizations. The call focused on how to work with vulnerable 
        communities to prepare for floods; review of the flood 
        insurance risk tool and the need for development of local NGO 
        leadership in rural communities prior to flooding.
  <bullet> The DHS Center, in partnership with FEMA Region VIII VAL, 
        attended North Dakota Voluntary Organizations Active in 
        Disaster (VOAD) meeting in Devil's Lake, ND to be briefed by 
        local, county, and Tribal officials on the status of the 2010 
        Devil's Lake flood disaster recovery efforts and to learn about 
        the financial, social, and spiritual impact of 17 years of 
        flooding in the region. The 17 years of flooding has been 
        devastating to Devil's Lake, ND--especially the already 
        economically vulnerable community of Spirit Lake Reservation. 
        Subsequently, the DHS Center met with leaders of FBCOs located 
        on Spirit Lake Reservation to discuss the unique challenges and 
        opportunities of working in disaster recovery on the 
        reservation and preliminary planning to form a Community 
        Organizations Active in Disaster (COAD) to include the Devil's 
        Lake Community and the reservation. In addition, the Center met 
        with Red River Resiliency, part of the Emotional and Spiritual 
        Needs subcommittee of Fargo/Moorhead COAD to discuss the 
        challenges of the organization and potential ways for the 
        Center to support their work.
  <bullet> The DHS Center, in partnership with FEMA Region III VAL, met 
        in three parts of West Virginia with a cross-section of 
        stakeholders: Agency, VOAD, house of worship, long-term 
        recovery, and State officials. In these meetings, the 
        participants identified challenges, successes, and areas of 
        improvement to help CFBNP and the FEMA VALs support the State, 
        the State VOAD, and long-term recovery efforts. West Virginia 
        has many communities in great need for long-term recovery and 
        has a severe lack of financial resources due to numerous small 
        disasters in rural and economically disadvantaged areas--CFBNP 
        is trying to help the community identify creative solutions for 
        fulfilling unmet needs.
  <bullet> The DHS Center attended the Pikeville College South kick-off 
        event along with FEMA colleagues. DHS Center commended the 
        community of Pikeville, Kentucky on their rebuilding efforts 
        since the July 2010 floods. Efforts include a $25,000 donation 
        presentation by the Pikeville Ministerial Alliance. Federal, 
        State, and local governments are partnering with faith-based 
        and community groups, Pikeville College, and the private sector 
        to remodel the motel to create 60 new housing units for flood 
        survivors. The rural and economically disadvantaged communities 
        were hit especially hard with the floods.
Individual and Community Preparedness Division
    FEMA's Individual and Community Preparedness Division (ICPD) 
supports this FEMA leadership priority by undertaking initiatives to 
engage organizations that serve economically disadvantaged communities. 
Recent ICPD efforts to get preparedness messages and strategic 
preparedness planning into important discussions include being involved 
in the 2010 Black Leadership Forum Summit, the Latino Leadership 
Summit, the 2010 Inclusive Emergency Management National Capacity 
Building Training Conference, and the Youth Preparedness Education 
Summit. These summits have allowed further strategic discussions with 
related organizations ranging from the National Pan Hellenic Council, 
the National Association for the Advancement of Colored People, 
National Council of La Raza and National Hispanic Christian Leadership 
Conference. FEMA's goal is to make sure these organizations, and the 
communities they represent, have an active seat and voice in 
preparedness efforts. For example, FEMA has reached out to some of 
these key groups to participate in the National Level Exercise Citizen 
and Community Preparedness Working Group.
    FEMA has also piloted an Emergency Preparedness Demonstration 
Project (EPD), designed to help advance the capacity of disadvantaged 
groups to develop and actively participate in disaster awareness and 
planning. Its objectives are to:
  <bullet> Conduct research on the status of disaster awareness and 
        emergency preparedness in socially and economically 
        disadvantaged households and communities.
  <bullet> Design and implement demonstration projects to improve 
        awareness and preparedness in such households and communities.
  <bullet> Develop proposals for incorporating changes in FEMA programs 
        based on results received.
    The project provided a set of resources and procedures for spurring 
locally-driven emergency preparedness planning, with a focus on low-
wealth neighborhoods and communities. Tools developed by the pilot 
include a six-step checklist, which provides disadvantaged groups a 
roadmap on how to organize, plan, coordinate, and implement emergency 
awareness and preparedness activities. EPD also included a focus on 
developing partnerships, for rural communities. The initial EPD work 
has led to increased strategies and resources with a rural focus. USDA 
Regional Rural Development Centers (RRDCs) have implemented programs 
with successful strategies identified under the EPD program.
Emergency Food and Shelter Program
    The Emergency Food and Shelter National Board Program (EFSP) is a 
Federal program administered by DHS' Federal Emergency Management 
Agency (FEMA) and has been entrusted through the McKinney-Vento 
Homeless Assistance Act of 1987 (Pub. L. 100-77) ``to supplement and 
expand on-going efforts to provide shelter, food, and supportive 
services'' for hungry and homeless people across the Nation.
    The National Board, the governing body of the EFSP, is chaired by 
FEMA with representatives from American Red Cross; Catholic Charities 
USA; The Jewish Federations of North America; National Council of the 
Churches of Christ in the U.S.A.; The Salvation Army; and United Way 
Worldwide. United Way Worldwide serves as Secretariat and fiscal agent 
to the National Board.
    The program's objectives are:
  <bullet> To allocate funds to the neediest areas;
  <bullet> To ensure fast response;
  <bullet> To foster public-private sector partnerships;
  <bullet> To ensure local decision-making; and,
  <bullet> To maintain minimal, but accountable, reporting.
    The National Board targets those jurisdictions each year that are 
most economically disadvantaged by allocating program funds based on 
the most currently available National unemployment and poverty 
statistics. The Local Boards that are convened assess the on-going food 
and shelter needs in their communities and select those local social 
service organizations best suited to deliver assistance according to 
the highest needs as identified by the Local Boards. As such, FEMA, by 
extension through the EFSP National Board and over 2,500 Local Boards 
across the country, works closely with local non-profit and government 
organizations that are daily meeting the needs of disadvantaged 
communities by providing assistance to their at-need populations in the 
form of food, served meals, shelter, and rent/mortgage and utility bill 
payments.
    The EFSP is a model program that fosters important public-nonprofit 
partnerships that enable the rapid and efficient delivery of emergency 
economic assistance to families and individuals on a daily, targeted, 
and coordinated basis. EFSP funds are used to provide the following 
services, as determined by the Local Board, in each funded 
jurisdiction:
  <bullet> Food, in the form of served meals or groceries;
  <bullet> Lodging in a mass shelter or hotel;
  <bullet> One month's rent/mortgage, and/or utility bill payment;
  <bullet> Transportation costs associated with the provision of food 
        or shelter;
  <bullet> Minimal repairs to mass feeding or sheltering facilities for 
        building code violations or for handicapped accessibility; and
  <bullet> Supplies and equipment necessary to feed or shelter people, 
        up to a $300 limit per item.
    Question 5. As I mentioned in my opening statement, the House 
Leadership has decided to pursue a Continuing Resolution budget 
strategy. I am concerned that this strategy places additional strain on 
FEMA at a time when the agency and our State and local partners should 
be moving forward with the grant process and critical preparedness 
efforts. Can you provide the committee with insight on what issues are 
presented to FEMA, State, and local agencies with a condensed grant 
schedule? Please provide a general description of some of the homeland 
security investments State and local agencies used grants funds for in 
fiscal year 2010.
    Answer. With the delayed fiscal year 2011 appropriations, FEMA must 
condense the grant schedule which will have an impact on FEMA's ability 
to fully review applications. FEMA is in the process of determining 
exactly what steps will be reduced in order to make awards by September 
30, 2011. Application periods will be reduced in length. If FEMA 
determines that there is not time for sufficient review of non-
competitive grant program awards, it will be necessary to place special 
conditions on awards thus restricting obligation and expenditure of 
grant funds until full reviews can be accomplished. Competitive review 
processes will have to be reduced in length, thereby placing additional 
pressure on staff and partner agencies that participate in the grant 
reviews.
    Question 6. While I understand that we are in a time of exercising 
fiscal restraint, I do hope that it means we will not lose focus of the 
good that the State Homeland Security Grant Program (SHSGP) does in 
helping State and local first responders prepare for the worst. Once 
again the President's budgets proposes the elimination of several 
smaller grant programs such as the Metropolitan Medical Response System 
and allow it to be eligible expenses under the (SHSGP). Can you explain 
the decision process and what factors determined which programs should 
be consolidated and those that should remain as carve outs and what 
feedback you have received from key State and local stakeholders? Also, 
what guidance will the Department provide to State and local 
stakeholders to assist them in the process of prioritizing risks so 
that grant dollars are focused on the resources most needed to enhance 
their preparedness?
    Answer. A March 2011 U.S. Government Accountability Office (GAO) 
report, Opportunities to Reduce Potential Duplication in Government 
Programs, Save Tax Dollars, and Enhance Revenues (GAO-11-318SP), noted 
that the number of FEMA preparedness grant programs has grown from 8 in 
2002 to 17 in 2010 as the result of Congressional and Executive branch 
actions. A number of these programs fund common eligible recipients 
(such as State homeland security agencies) for similar purposes.
    The DHS Inspector General had reported previously, in March 2010, 
that FEMA's application process for its preparedness grant programs did 
not promote effectiveness and efficiency because FEMA did not compare 
and coordinate grant applications across preparedness programs to 
identify and mitigate potential duplications (for example, planning and 
interoperable communications are two activities that can be funded by 
almost all of the programs reviewed by the Inspector General); the 
report recommended FEMA do so.
    In response to these and other external and internal reviews, we 
are actively exploring opportunities to consolidate grant programs when 
it makes sense for FEMA and our grantees in a way that does not 
diminish the efficacy of the overall homeland security enterprise. Our 
grant program guidance will incorporate specific requirements to 
promote the use of tailored investment justifications to ensure that 
objectives of small programs such as MMRS are not overlooked. We are 
also actively incorporating specific risk analyses and performance 
measurement frameworks in all of our grant programs; this will further 
ensure that critical ``small grant'' objectives are retained within the 
overall homeland security program.
     Over the longer term, we look forward to working with the Congress 
to streamline and consolidate program-specific legislation to ensure 
alignment and efficiency.
                                 grants
    Question 7. The President's fiscal year 2012 budget request 
eliminates and consolidates a variety of grant programs. Among the 
largest programmatic grant reductions in the proposal are to the 
Firefighter Assistance program--the Staffing for Adequate Fire and 
Emergency Response (SAFER) and Assistance to Firefighter Grant (AFG). 
For fiscal year 2012, the two programs would receive $670 million, $140 
million less than the Congress provided in fiscal year 2011. While I do 
recognize the increased allocations for SAFER and AFG are still being 
cut by $200 million, can you please explain to the committee how the 
Department came to the decision to reduce funding for AFG while 
increasing SAFER grants?
    Answer. Due to current economic hardships on State and local 
governments that threaten the reduction in staffing of fire departments 
to dangerously low levels, the decision was made to focus limited grant 
resources on rehiring laid-off firefighters. The fiscal year 2012 
budget request provides funding for more than 2,200 firefighter jobs. 
Additionally, some larger grant programs such as the State Homeland 
Security Program and UASI can fund some activities including training 
and equipment associated with the AFG program.
    The decision to allocate a higher percentage to the SAFER grants 
was based on the impact staffing, or lack thereof, has on firefighter 
safety. For example, in April 2010, the Commission on Fire 
Accreditation International (CFAI) (a National fire service 
organization that accredits fire departments), in conjunction with the 
National Institute of Standards and Technology (NIST), released a study 
that links the impact between staffing and arrival times influence on 
saving lives and property. One finding from this study indicates that 
four-person crews were able to respond and conduct search and rescue 
functions 30 percent faster than departments with smaller crew sizes. 
The study concludes that smaller crews (i.e. two-person crews) would 
impact sensitive communities (children and elderly) due to their 
inability to mitigate the effects of gas and fire exposure. Further, a 
report by the National Fire Academy found that in smaller communities, 
a crew staffed with four firefighters rather than three could perform 
rescue of potential victims 80 percent faster.
    Staffing levels also impact the safety of the firefighters. A study 
from the Seattle Fire Department concluded that ``the rate of 
firefighter injuries expressed as total hours of disability per hours 
of fire ground exposure were 54% greater for engine companies staffed 
with 3 personnel when compared to those staffed with 4 firefighters.'' 
According to the United States Fire Administration, there were over 
445,400 fires in 2009 representing 2,570 fire deaths and 14,100 
injuries. Direct costs from these fires losses were estimated at $10 
billion. The impact of smaller crew size can also affect the health and 
safety of a firefighter. Results from the CFAI/NIST study showed that 
cardiovascular strain was higher when a crew of two firefighters was 
deployed than when a crew of five firefighters was deployed. In 2009, 
82 firefighters were lost in the line of duty. A contributing factor in 
these fatalities was stress and overexertion. As the CFAI/NIST study 
noted, there is strong evidence to show that heavy physical exertion 
and cardiovascular strain can trigger sudden cardiac events. There were 
27 firefighters lost on the fire ground.
    In conclusion, increases in funding for SAFER grants are being 
proposed because of the need to avoid reductions in the number of 
firefighters.
    Question 8. In the President's fiscal year 2012 Budget 
Congressional Justifications for FEMA State and Local Programs, the 
Department has taken steps to list their fiscal year 2012 Planned 
Accomplishments. Among the accomplishments listed is a reference 
describing the intent for funding of the ``Assistance to Firefighters 
Grants'' for fiscal year 2012 as to, ``Enable hiring of more than 2,200 
firefighter positions that curb the trend of layoffs and improve 
departmental capability to respond per National Fire Protection 
Association Recommendations.'' Considering that the amount of monies 
funded for the AFG Program is reduced by $140 million to a total of 
$670 million and the need for many other things that local fire 
departments could do with that money, how did you come to the 
determination that the hiring of more than 2,200 firefighters would be 
possible?
    Answer. The following is the formula used to estimate the number:
  <bullet> GPD currently uses 5% of the appropriated funds for 
        management and administration;
  <bullet> Therefore, $399,000,000 would be available for SAFER awards;
  <bullet> In addition to hiring firefighters the SAFER grants support 
        the recruitment and retention of volunteer firefighters with an 
        estimated 10% of the available funds are allocated towards 
        those programs;
  <bullet> In fiscal year 2010 the average firefighter position was 
        $81,600 (salary and benefits);
  <bullet> In fiscal year 2010 the period of performance for these 
        positions was 2 years;
  <bullet> Each fiscal year 2010 funded position received $163,200 (on 
        average);
  <bullet> Given available funding (minus M&A and volunteer R&R), with 
        an estimated cost $160,000 per firefighter for a 2-year period 
        of performance, GPD estimates funding 2,200 positions.
    Question 9. As you know, the 9/11 Commission found that 
interoperable emergency communications was a profound area of need for 
first responders. While some progress has been made since that time, 
interoperability remains a major homeland security challenge. The 
President's fiscal year 2012 budget request eliminates the 
Interoperable Emergency Communications Grant Program (IECPG) as a 
stand-alone program and consolidates it into an eligible expense under 
the State Homeland Security Grant Program (SHSGP). Given the current 
fiscal difficulties that so many of our State and local communities are 
facing, are you confident that interoperable communications initiatives 
will receive the same level of attention in the grant application 
process as it now has with the existence of a distinct program as it 
now stands?
    Answer. Since fiscal year 2008, the Interoperable Emergency 
Communications Grant Program (IECGP) has awarded $145,150,000 to 56 
States and territories. IECGP provides governance, planning, training, 
and exercise funding to States, territories, local, and Tribal 
governments to carry out initiatives to improve interoperable emergency 
communications, including communications in collective response to 
natural disasters, acts of terrorism, and other man-made disasters. 
State and local governments have used IECGP awards to fund Statewide 
Interoperability Coordinators (SWICs), develop Statewide Communication 
Interoperability Plans (SCIPs) and periodic updates, and meet the 
strategic goals of the National Emergency Communications Plan (NECP).
    The State Homeland Security Program (SHSP) allows for funding of 
similar efforts; therefore, the budget request seeks to consolidate 
IECGP into the broader grant program in order to maximize the ability 
of State decision-makers to set priorities and to reduce the 
administrative barriers to grants. FEMA is working with the National 
Protection and Programs Directorate's (NPPD) Office of Emergency 
Communications (OEC) to ensure that IECGP initiatives are maintained, 
such as meeting the requirements of IECGP Priority Groups One 
(Leadership, Governance, and Common Operational Planning and Protocols) 
and Two (Emergency Responder Skills and Capabilities Development 
through Training and Exercises). FEMA and NPPD/OEC are also 
coordinating to include IECGP allowable activities into the SHSP cost 
categories of planning, training, exercises, personnel, and equipment 
that will continue to enhance interoperability. Therefore, we are 
confident that the consolidation will not hinder the effectiveness of 
enhancing capabilities for interoperable communications.
    Question 10. Under the proposed continuing resolution for fiscal 
year 2011, H.R. 1, the State Homeland Security Grant Program (SHSGP) is 
reduced by approximately 12 percent when compared to the President's 
fiscal year 2011 budget request. The cut will result in reduced funding 
for highest-risk States due to the mandatory minimums for States in 
Sec. 2004 of the 9/11 Commission Act of 2007. Would you speculate for 
us how the reduction will affect the awarding of grants under this 
program?
    Answer. Any reduction in funding for the State Homeland Security 
Grant Program (SHSGP) will directly affect the highest-risk States, as 
DHS plans to allocate SHSGP funding based upon the results of the 
fiscal year 2011 risk analysis in accordance with the mandatory 
minimums as established by the 9/11 Act requirements.
    SHSGP risk is evaluated at the Federal level using an analytical 
model developed by DHS in conjunction with other Federal entities.
  <bullet> Threat--the likelihood of an attack occurring.
  <bullet> Vulnerability--the relative exposure to an attack.
  <bullet> Consequence--the expected impact of an attack.
    The risk model used to allocate SHSP funds considers the potential 
risk of terrorism to people, critical infrastructure, and economic 
security to estimate the relative risk of terrorism faced by a given 
area. If a State's risk-determined allocation is below the statutory 
minimum, DHS must increase their allocation amount to the minimum 
threshold, which is absorbed by the States at higher risk. Reductions 
in appropriated SHSGP funds will in fact have a larger impact on 
higher-risk States unless the statutory minimums are lowered 
proportionately.
    Question 11. You regularly emphasize that citizens should be viewed 
as a resource and not a liability in preparing and responding to a 
disaster. The Citizen Corps Program builds on your emphasis of 
utilizing the ``Whole of Community''. Therefore, it is important that 
we continue to utilize this program as means to engage and empower 
citizens within emergency management and homeland security. Please 
describe how the Citizen Corps Program has enhanced our Nation's 
preparedness? Given our financial constraints, is FEMA committed to 
continue to build this program in the future?
    Answer. The Federal Emergency Management Agency's (FEMA's) Citizen 
Corps program is a Nation-wide grassroots effort to provide all 
Americans with the knowledge, skills, and capability to take 
responsibility for their own safety and that of their families and 
neighbors. Located in all 50 States and six U.S. territories and 
reaching over 180 million people, Citizen Corps Councils are helping 
Americans make their own communities better informed, trained, and 
prepared for threats of all kinds. Through these Councils, local 
governments are bringing emergency responder groups together with non-
profits, private sector, faith-based organizations, schools and school 
administrators, volunteer groups, and other non-governmental groups to 
address community-based strategies for preparing for and responding to 
threats of all kinds. FEMA is committed to expanding Citizen Corps 
Councils across the Nation, and with continued support from Congress, 
we can go further, faster. FEMA is committed to building individual and 
community preparedness across the whole community. Citizen Corps will 
continue to be an important part of that commitment.
    Question 12. Under the proposed continuing resolution for fiscal 
year 2011, H.R. 1, Port Security grants are cut by $200 million, or 
two-thirds. Would you speculate for us how the reduction will affect 
the awarding of grants under this program?
    Answer. The goal of the port security grant program is to mitigate 
port security risks to include addressing the gaps and vulnerabilities 
that may expose our ports to terrorist attack. Toward that end, the 
program has been highly successful; all large ports have made 
substantial progress toward addressing the risks identified in their 
Port-Wide Risk Management plans. However, over the long term, a major 
reduction in funding could have a significant impact on the ability of 
port stakeholders to complete the job--to prevent, protect, respond to, 
and recover from a terrorist attack by addressing the security 
vulnerabilities that remain.
    Since the 2007 Supplemental round of port security grants, awards 
to the highest-risk port areas (that annually receive approximately 90% 
of available funding), have been administered through a Fiduciary Agent 
in which a single grantee is issued funds to support a collaborative 
approach for managing security risks throughout the port. The Port-Wide 
Risk Management Plan (PRMP) is designed to assess port security needs 
and identify specific capability gaps and risk-related vulnerabilities. 
The PRMP includes a list of prioritized initiatives and/or projects and 
a 5-year anticipated spend plan for the port area to address those gaps 
and vulnerabilities and reduce port security risks. Most of the PRMP 
spend plans were developed based on the assumption that annual funding 
levels would remain steady or increase for the duration of the 5-year 
plan.
    Although the fiscal year 2011 appropriation for PSGP reduces 
funding by 16.6% to $250 million, it does not necessarily translate to 
an across-the-board, 16.6% cut for all ports.
    In summary, from a grant programmatic perspective, it is not 
possible to predict exactly what the effect of reduced funding for 
fiscal year 2011 would be for the ports in the United States. However 
over the long term, and as previously noted, reduced funding may cause 
significant delay or outright abandonment of vital risk mitigation 
projects for the ports.
                       fema's overall budget cut
    Question 13. Administrator Fugate, the committee applauds the job 
you have done in rebuilding FEMA and re-establishing strong connections 
with the emergency management community. Yet, challenges remain 
including overcoming the memories of FEMA's disastrous performance in 
response to Hurricane Katrina. Given the 4 percent cut to FEMA's 
overall budget, please describe your plans for continuing to strengthen 
FEMA and how the President's fiscal year 2012 budget implements such a 
plan.
    Answer. As the President made clear in his State of the Union 
address, the current budget climate requires us to take a hard look at 
our agency and make tough decisions on how to spend limited taxpayer 
funds. As an emergency manager, I have never been given unlimited funds 
to fulfill my mission, and this year is no different. The 
administration's proposed budget reflects the appropriate balance of 
reducing spending in several areas and enabling FEMA, through 
efficiency and innovative thinking, to fulfill its mission of ensuring 
domestic resilience to disasters.
    The fiscal year 2012 President's budget request of $815.099 million 
for the Management and Administration appropriation reflects FEMA's 
priority to manage resources more effectively across the Federal 
Government while ensuring the Nation's resilience from disasters. The 
agency has reexamined its current allocation of resources among 
existing programs to consider the relative return on investment among 
these activities, and to focus on those programs that have the most 
significant impact on the agency's ability to fulfill its emergency 
management mission. Moreover, FEMA will focus on streamlining current 
business processes and harnessing the use of innovative technologies. 
FEMA is confident the 2012 President's budget provides the level of 
resources required to support the agency's ability to fulfill its 
emergency management mission.
    First, the fiscal year 2012 budget request reflects the resources 
required to support the current level of staffing across the agency. In 
recent years, FEMA has added staff to build internal capacity in the 
following functional areas:
  <bullet> Establishing Incident Management Assistance Teams (IMATs).
  <bullet> Developing National Response Coordination Center and 
        Regional Response Coordination Center 24/7 watch capability.
  <bullet> Increasing operational planning capability.
  <bullet> Strengthening emergency communications through Mobile 
        Emergency Response Support (MERS) and improved public disaster 
        communications.
  <bullet> Enhancing the agency's disaster recovery and logistics 
        functions.
  <bullet> Building capacity for business support activities including 
        acquisition management, information technology, and financial 
        management.
    Through these additional resources, FEMA can now respond to 
disasters and help communities recover more quickly than before. For 
example, the agency can now provide IMATs, Urban Search and Rescue 
(US&R) Teams, and MERS within 12 hours of deployment notification. 
Moreover, the agency is now able to fill more than 97.5 percent of 
orders for life-sustaining commodities (including meals, water, tarps, 
cots, blankets, etc.) within the required time frame. In short, the 
agency is making significant progress towards its goal of stabilizing 
communities impacted by Presidentially declared disasters within 72 
hours of the event. In addition, today, the agency is able to provide 
more than 94 percent of eligible applicants with temporary housing 
assistance within 60 days of a disaster. The fiscal year 2012 budget 
request reflects the funding to maintain the internal capacity that 
FEMA has established in recent years.
    Additionally, the President's proposed budget for fiscal year 2012 
would sustain Federal funding of more than $3.84 billion for State and 
local preparedness grants, highlighting the Department's commitment to 
getting resources into the hands of State and local first responders 
who are often best positioned to detect and respond to terrorism, 
natural disasters, and other threats. Even in this difficult budget 
environment, the administration recognizes the importance of 
maintaining funding for State and local governments as they prepare for 
major disasters and emergencies of all kinds.
    Question 14. Administrator Fugate, as you know, last year DHS 
submitted its first-ever Quadrennial Homeland Security Review (QHSR) to 
Congress, followed by its Bottom-up Review (BUR), which included an 
assessment of DHS' organizational alignment with the homeland security 
missions set forth in the QHSR. The BUR was hailed as the second step 
of a three-step process, with the Department's fiscal year 2012 budget 
request serving as the third and final step. So now, the process is 
complete. Looking back, how did the QHSR/BUR process enhance budget 
preparation for FEMA? What organizational steps did DHS and FEMA take 
to ensure that the BUR informed the budget request? Can you point to 
specific items in the budget that were included based on the 
assessments from the BUR?
    Answer. The BUR and subsequent Resource Allocation Plan (RAP) 
development were used by FEMA to frame and organize its annual budget 
request. The agency recognizes the need to better articulate what we 
do, why we do it, and what is the outcome, and the BUR afforded FEMA 
that opportunity. The objectives of the BUR were three-fold:
    (1) Improve comparability and transparency agency-wide to provide a 
sense of what it costs to do business and what we achieve for those 
costs;
    (2) Improve performance management to describe the impact of 
delivering more effective emergency management; and
    (3) Improve costing to more accurately and reliably describe what 
it takes to deliver emergency management.
    Organizationally, FEMA executed a number of steps to ensure that 
the BUR informed the agency's budget request. First, FEMA developed an 
``Activities Inventory'' which serves as the comprehensive list of 
agency activities and foundation of FEMA's annual budget, accounting 
for 100% of agency resources. Second, FEMA aligned its activities to 
the Department's QHSR mission, goals, and objectives. Third, FEMA 
evaluated its current program and account structure related to 
activities and alignment to overall mission, goals, and objectives 
which helped the agency better articulate its return on investment 
story. Fourth, FEMA has required performance measures aligned to 
activities to increase its ability to show programs' contribution to 
the achievement of mission outcomes. Last, the process of inventorying 
and aligning activities to missions, indentifying the cost elements/
drivers of each activity, aggregating activity costs to programs and 
missions, and tracking actual activity cost against spend plans for 
budget execution has enabled FEMA to better articulate the relationship 
to strategy. These efforts have enabled FEMA to more formally integrate 
the RAP (i.e. budget development) process with other program planning 
and budget processes.
    A couple of specific examples stem from the BUR and FEMA's fiscal 
year 2012-2016 Resource Allocation Plan (RAP) development assessments. 
Mass Care was considered a part of FEMA's Individual Recovery 
Assistance and aggregated therein. However, through the BUR, the 
importance of defining Individual Assistance--Mass Care as a distinct 
function directly supporting QHSR Goal 5.3 (response), whereas the 
typical Individual Assistance function directly aligns to the QHSR Goal 
5.4. This resulted in a better understanding and articulation of the 
two distinct--yet related--functions being performed by the same 
personnel in the overall Recovery Mission--both of which are critical 
to the accomplishment of QHSR Mission 5.
    For the Preparedness Mission, the BUR assessment revealed a number 
of similar functions related to preparedness training and education and 
the various associated training sites. The Program--in reviewing the 
data--undertook a deeper review and recognized commonalities among 
training sites that resulted in a consolidating and/or streamlining 
similar functions into an activity that describes the true function.
    Question 15. In an effort to save costs, the budget seeks to push 
back the date for the consolidation of FEMA to St. Elizabeths. How will 
this decision impact FEMA's budget for the rental and leasing of office 
space?
    Answer. Pushing back the date for the consolidation of FEMA to St. 
Elizabeth's will impact FEMA's budget and leasing of office space. 
Currently, we are paying $32 million annually in rent and operating 
costs for the eight NCR GSA-leased facilities up to fiscal year 2014. 
The anticipated funding for fiscal year 2014 rent would have been $24 
million (thru June 2014). In the last quarter of fiscal year 2014 and 
fiscal year 2015, FEMA's rent would have been $0 with the planned move-
in to the St. Elizabeth facility. If the St. Elizabeth's facility 
completion date is pushed back, GSA will have to renegotiate the 
majority of leases for FEMA in the National Capital Region and funding 
will have to be provided for the rent and operating costs of these 
facilities which could estimate $35 million annually for each year FEMA 
cannot move in to the St. Elizabeth facility.
                        transportation security
    Question 16. The Department of Homeland Security and TSA continue 
to focus almost exclusively on aviation security, spending, on average, 
$9 per air passenger, as compared to only one penny per rail/mass 
transit passenger. What percentage of FEMA's budget is being spent on 
surface transportation programs, such as technology research, training, 
and response and preparedness operations specifically for mass transit 
and passenger rail?
    Answer. The President's fiscal year 2012 budget requests funding 
for program specifically focused on surface transportation program--the 
Transit Security Grant Program (Intercity Passenger Rail--Amtrak/
Freight Rail Security Grant Program). The Transit Security Grant 
Program provides funds to support transit systems which include 
intercity bus, commuter bus, ferries, and all forms of passenger rail. 
The fiscal year 2012 request is $300 million, or approximately 4.4% of 
the entire FEMA request of $6.8 billion.
              training, measurement, and exercise program
    Question 17. The budget request proposes a dramatic cut to the 
National Domestic Preparedness Consortium (NDPC), which identifies and 
provides first-responder training in the areas of terrorism and 
catastrophic event prevention, deterrence, and incident response. 
Please describe how FEMA came to decision to cut these important 
training programs utilized by our State and local first responders.
    Answer. The NDPC budget request was determined based on the fact 
that States are assuming increased responsibility for awareness level, 
refresher, and sustainment training that will allow our institutional 
partners to focus resources on more advanced, specialized training 
consistent with their respective expertise.
                              social media
    Question 18. You have done a great job with utilizing social media 
to provide citizens with important emergency management agencies that 
will enhance their preparedness and speed the recovery process. Please 
describe how FEMA has enhanced the use of social media and how the 
budget request supports those efforts. How will FEMA ensure that 
individuals without access to the internet and social media, including 
the elderly, are capable of receiving timely emergency information?
    Answer. In support of FEMA's Congressional Justification, FEMA's 
strategy is to use social media tools the public are using on a daily 
basis, so we're providing more of our information through those 
channels, including through our mobile website (http://m.fema.gov). In 
addition, DHS S&T is supporting FEMA IPAWS by examining the use of 
emerging technologies in public alert and warning. The First Responder 
Group is examining how the Emergency Response Community can best use 
social media to originate and disseminate alerts and warnings. Given 
the popularity and growth of on-line social media communities, alerting 
the public through social media, in addition to the other sources, 
serves as a critical dissemination channel. According to a survey 
conducted in August, 2010 by the American Red Cross, nearly 75% of the 
U.S. population uses at least one on-line social media community. In 
light of the popularity of these networks, on-line social media offers 
an important opportunity for emergency managers to disseminate alerts 
to more people, in more places, in less time. An important part of this 
strategy is to not make the public conform to how we think they should 
operate. Just like going to a physical town hall meeting to listen and 
engage with the public, this is what we're doing with social media, 
we're going out and we're listening. During a response, FEMA acts as a 
support agency and we're part of the team, so we help amplify State/
local messages, point users to State/city/Red Cross social media 
accounts, and highlight great examples of technology projects that 
benefit the public.
    FEMA employs a multi-pronged communications approach, understanding 
that social media and digital communication channels are only one tool 
in the toolkit. And as we often say, ``FEMA is not the team--FEMA is 
part of the team,'' where ``team'' includes the entire Federal family, 
State, local, and Tribal officials, the faith-based, businesses, and 
non-profits in the private sector, and most importantly the public. We 
rely on each member of the team to share information before, during, 
and after disasters, and work to leverage all of the resources that the 
collective team brings to the table in meeting that goal.
    During any incident, emergency information starts with--and it best 
provided by--the State, local, and Tribal officials who are primarily 
the first responders and know the needs of their communities and 
respective populations best. As such, FEMA works hand-in-hand with 
these partners to help support their communications efforts by 
amplifying their emergency messages. For example, if a State has issued 
evacuation orders prior to a hurricane, FEMA, in coordination with the 
State, will use all the communications tool in our toolbox to help 
amplify that message, so it reaches as many people in the targeted area 
as possible. And whether we are in ``steady state'' or in an emergency, 
we are constantly working with these partners on their emergency 
communications planning, to ensure they are taking all key factors into 
account, so as making sure their communications can reach individuals 
without access to social media and the internet, the elderly, people 
who speak other language, or people with disabilities, to name a few. 
As always, we stand in support of the States and are ready to assist 
with any communications needs they may have, whether it is translation 
services, planning expertise, or guidance on how to ensure all 
communications are 508 compliant.
    At the National level, and now in each of FEMA's 10 regional 
offices of External Affairs, the agency has dedicated liaisons to the 
private sector who cultivate year-around relationships with 
organizations that represent digital billboards such as the Outdoor 
Advertising Association of America (OAAA), satellite communications 
companies like the Global V-Sat Forum which represents 200 global 
satellite companies, and other partners that can amplify critical 
messages through non-traditional channels. The private sector liaisons 
also share communications through other FEMA programs that maintains 
relationships with organizations that serve disadvantaged and local 
populations. For example, through its Individual and Community 
Preparedness Division, FEMA has affiliations with National 
organizations like Meals on Wheels and others that reach into specific 
populations. FEMA also has established a disability coordinator at the 
National and regional levels, maintains Voluntary Agency Liaisons at 
headquarters and in the regions, and works closely with the DHS Office 
of Faith Based and Neighborhood Initiatives for reach into most local 
populations.
    FEMA's private sector liaisons also works during disasters to 
leverage the communication channels of local and State-wide 
organizations, such as major employers, academic institutions, 
volunteer groups, and Chambers of Commerce. For example:
  <bullet> During the March 2011 tsunami threat to the Pacific Coast, 
        members of the Outdoor Advertising Association of America, Inc. 
        (OAAA) displayed tsunami warnings to the public.
  <bullet> New England Floods, 2010: FEMA collaborated with the Boston 
        Red Sox, New England Sports Network, the Boston Bruins, and 
        with Clear Channel and Lamar Outdoor Advertising to communicate 
        assistance information in Massachusetts and Rhode Island. Also, 
        FEMA and Rhode Island Emergency Management worked with National 
        Grid, a major utility provider, to include disaster 
        registration information in their April billings to 465,000 
        Rhode Islanders.
  <bullet> Tennessee Floods, 2010: FEMA worked closely with the 
        National Football League Players Association, the Tennessee 
        Titans, Gaylord Entertainment, Chambers of Commerce State-wide, 
        and the music industry to share disaster assistance information 
        with fans, customers, and other stakeholders. The Titans 
        recorded Public Service Announcements with FEMA.
  <bullet> Sector Days: FEMA produced the first ever Technology Sector 
        Day in early 2010 as a forum to bring Government and key 
        technology innovators together to discuss how to work better 
        together and how to leverage technology to improve the way FEMA 
        does business. Participants included technology giants such as 
        Google, Microsoft, Facebook, Verizon, and others. FEMA also 
        held a Federal Government Private Sector Engagement Workshop 
        attended by White House representatives and Federal officials 
        from two dozen agencies, advancing the ability of FEMA and the 
        Government to engage with the private sector. (This Federal 
        Workshop was only for Federal officials, not the private sector 
        representatives.) Additional sector days are underway, 
        including one held for retail industry leaders in March 2010.
                international disasters lessons learned
    Question 19. Over the last couple of months, we have witnessed 
massive earthquakes and other natural disasters that have occurred 
across the world. I know you are closely monitoring these situations to 
learn how we can better prepare for and respond to disasters here at 
home. Please describe how FEMA collaborates with other countries' 
emergency management agencies and implements lessons learned into its 
programming.
    Answer. FEMA collaborates with other countries' emergency 
management agencies in a variety of ways:
  <bullet> Bilateral Cooperative Agreements
    FEMA exchanges best practices and solutions to emergency management 
        challenges through participation in multilateral organizations 
        such as the Asia Pacific Economic Cooperation, the North 
        Atlantic Treaty Organization, the European Union and with 
        emergency management offices in Australia, New Zealand, Israel, 
        the Russian Federation, Canada, Mexico, Chile, and 16 other 
        nations. Work plans developed to support these agreements have 
        emphasized lessons learned sharing activities following the 
        recent flooding and earthquake disasters in these countries.
  <bullet> Ad Hoc Requests for Visits and Speakers
    In fiscal year 2010, FEMA employees met with 720 emergency 
        management officials from 69 countries to share knowledge and 
        lessons learned. In fiscal year 2010, 142 FEMA staff visited 37 
        countries to provide subject matter expertise through programs 
        sponsored by NATO, the U.S. Combatant Commands, U.S. Army Corps 
        of Engineers or the Agency for International Development, or to 
        speak at events, observe exercises, or participate in other 
        international activities. During such meetings and events, 
        staff members learn about other countries' emergency management 
        systems, challenges, and lessons learned.
  <bullet> Multilateral Forums
    FEMA also collaborates with other countries' emergency management 
        agencies in multilateral forums where lessons learned are 
        shared, namely the Senior Civil Emergency Planning Committee 
        (SCEPC) of the North Atlantic Treaty Organization (NATO), and 
        the Asia-Pacific Economic Cooperation (APEC) forum's Emergency 
        Preparedness Working Group (EPWG). In the next 6 months, FEMA 
        will continue to engage with Japan under the APEC Emergency 
        Preparedness Working Group (EPWG) during a Workshop on Private 
        Sector Preparedness. As a member of the National Science and 
        Technology Council's Subcommittee on Disaster Reduction (SDR), 
        FEMA also strives to remain informed of the United Nations 
        International Strategy for Disaster Reduction (UNISDR) 
        initiatives and resources. The SDR is the U.S. National 
        Platform to the UNISDR.
  <bullet> Sharing Lessons Learned
    In an effort to share international lessons learned more broadly 
        among FEMA and with U.S. emergency management partners and 
        stakeholders, an International Lessons Learned page has been 
        created and populated with content in LLIS.gov. Efforts to 
        strengthen and sustain this page will continue as future 
        international collaboration yield more lessons learned.
  <bullet> Promoting Change
    Information on New Zealand's efforts to drive community resilience 
        was explored during the preparation of Presidential Policy 
        Directive on Preparedness. A similar trip to Japan has resulted 
        in strengthened FEMA contact with Japanese counterparts, who 
        have since shared with the agency information on the Tohoku 
        earthquake and tsunami. This information, of which some lessons 
        learned can be drawn, has been summarized and shared with FEMA 
        leadership. In another example, recent staff involvement in 
        other countries' emergency exercises, have helped to inform the 
        development of exercise injects for the U.S. National Level 
        Exercise 2011 (NLE11) when six international partners will be 
        players. FEMA's Office of Policy and Program Analysis is 
        working with international partners to identify community 
        experiences that address local action and public engagement in 
        resilience-related activities. The focus is on identifying 
        themes that will inform future policy initiatives.
           Questions From Chairman Peter T. King of New York
    Question 1a. It is my understanding that the President's fiscal 
year 2012 budget request for the Federal Emergency Management Agency 
(FEMA) includes $7 million for the Prepositioned Equipment Program. 
However, it is also my understanding that the funding required to run 
the current 10 sites is $9.7 million and if the planned 11th site is 
open, $10.3 million will be necessary.
    Why doesn't the President's budget fully fund this program that 
provides vital equipment to first responders during disaster response?
    Answer. The fiscal year 2012 President's budget request reflects 
FEMA's priority to manage resources more effectively across the Federal 
Government while ensuring the Nation's resilience from disasters. The 
agency has reexamined its current allocation of resources among 
existing programs to consider the relative return on investment among 
these activities, and to focus on those programs that have the most 
significant impact on the agency's ability to fulfill its emergency 
management mission. FEMA is confident that the fiscal year 2012 budget 
request provides the level of resources required to support the 
agency's ability to fulfill its emergency management mission.
    Question 1b. If full funding is not provided for this program in 
fiscal year 2012, how will FEMA make up for the shortfall in funding?
    Answer. Given the cost-saving measures that FEMA is currently 
pursuing, we believe we can maintain program readiness to support 
State, local, and Tribal response operations during a disaster within 
the projected fiscal year 2012 funding levels.
    Question 1c. Will the lower level of funding cause the delay of the 
establishment of the 11th site in Hawaii?
    Answer. FEMA has funds available in fiscal year 2011 to invest 
towards the capital investment costs to start-up the establishment of a 
PEP site in Hawaii. Utilizing this funding, FEMA is currently working 
to establish the 11th PEP site by the end of fiscal year 2011.
    Question 2. What impact has the continuing resolution had on the 
funding of the Prepositioned Equipment Program?
    Answer. FEMA has maintained readiness of PEP throughout the on-
going continuing resolutions of fiscal year 2011 based on the partial 
funding allocations provided.
 Question From Chairman Gus M. Bilirakis of Florida on Behalf of Hon. 
                         Mike Rogers of Alabama
    Question. Regional Emergency Operations Centers are an important 
element in our overall preparation and response efforts in the event of 
a major disaster. Given that certain areas of the Nation, like the Gulf 
Coast, are more prone to natural disasters, how does FEMA plan to 
prioritize the utilization of regional Emergency Operations Centers and 
make any necessary funding available for them in the current budget 
environment?
    Answer. FEMA's ten Regions are the first line of disaster response. 
For any given incident, FEMA disaster response begins and ends with the 
affected Region in the lead. The Regional Response Coordination Center 
(RRCC) maintains a central role throughout the life cycle of an 
incident.
    The Regional Administrator stands up the RRCC by activating the 
Regional Response Coordination Staff, which includes FEMA personnel, 
the appropriate Emergency Support Function representatives, and other 
personnel (including representatives of NGOs and the private sector 
when appropriate). The RRCC provides needed resources and policy 
guidance to support an incident and coordinates with the National 
Response Coordination Center (NRCC), State emergency operations centers 
(EOCs), State and major urban area fusion centers, and other Federal 
and State operations centers as required. The level of an RRCC's 
activation depends on the unique needs of each situation as determined 
by the Regional Administrator.
    The day-to-day cost of operating the RRCCs is part of the base 
budget dispersed among the Regions and is included in the facilities 
costs for Regional spaces (leases; utilities; maintenance) as well as 
in the agency's Maintenance & Administration budget. In the event of a 
disaster and increased operational tempo, additional expenses for the 
RRCCs are funded through the Disaster Relief Fund. In addition, as 
necessary, the Regions can provide backup support to each other.
    The Emergency Operations Center (EOC) Grant Program is authorized 
by Section 614 of the Robert T. Stafford Disaster Relief and Emergency 
Assistance Act (42 U.S.C. 5196c) as amended by Section 202 of the 
Implementing Recommendations of the 9/11 Commission Act of 2007 (Pub. 
L. 110-53).
    Administered through FEMA's Grant programs Directorate (GPD), the 
EOC Grant Program supports flexible, sustainable, secure, strategically 
located, and fully interoperable EOCs with a focus on addressing 
identified deficiencies and needs. Regional EOCs are permissible under 
the EOC Grant Program however. FEMA relies on the individual States to 
identify whether a regional EOC would be beneficial to the State and to 
the multi-State area.
    Under the EOC grant program, the State Administrative Agency (SAA) 
is the eligible applicant and applies for EOC funding on behalf of 
eligible State, local, and Tribal EOCs. Each State sets its own 
priorities in determining which applications to submit for the National 
Review process. Each application [or investment justification] is 
initially scored by the SAA prior to submission to FEMA for inclusion 
in the National Review process. The National Review panel evaluates 
each application for completeness, adherence to programmatic 
guidelines, and anticipated effectiveness.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
